                                                                             Report No. DODIG-2014-056




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              APRIL 8, 2014




                     Army Financial Improvement
                     Plans Generally Managed
                     Effectively, but Better Contract
                     Management Needed




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Army Financial Improvement Plans Generally
                                       Managed Effectively, but Better Contract
                                       Management Needed


April 8, 2014                                         Findings Continued

Objective                                             the COR designation memorandum, or complete thorough reviews
                                                      of contractor invoices.  This occurred because the four primary
Our objective was to determine whether the            U.S. Army Corps of Engineers – Huntsville Engineering and Support
Department of the Army effectively managed            Center (CEHNC) contracting officers did not ensure that the COR had
its    Financial   Improvement    Plan   (FIP),       the necessary resources to perform adequate oversight.  As a result,
including contractor support, to meet Financial       ASA(FM&C) had reduced assurance that the $90.1 million spent on
Improvement and Audit Readiness (FIAR) goals.         Army General Fund audit readiness services represented the actual
Specifically, we focused on the FIAR priorities       quality and quantity of work performed.
of improving budgetary information and
verifying the existence and completeness of           CEHNC personnel used inadvisable accounting practices.  This
mission critical assets. We also assessed the         occurred because the U.S. Army Corps of Engineers did not definitize
Army’s compliance with FIAR Guidance when             its reimbursable orders policy before contract issuance and CEHNC
developing 10 FIPs.                                   personnel did not record obligations in accounting records properly.
                                                      As a result, CEHNC personnel processed $21.5 million in contractor
                                                      payments, citing an incorrect obligation, and was at increased risk
Findings                                              of overobligating Army military construction accounts.
Assistant Secretary of the Army (Financial
Management and Comptroller) (ASA[FM&C])
personnel generally managed 10  Army General          Recommendations
Fund FIPs in an effective manner and made             We recommend that the Under Secretary of Defense (Comptroller)/
6 assertions focused on the 2  FIAR priorities.       Deputy Chief Financial Officer, DoD, require a cost-benefit analysis
However, FIAR Directorate personnel approved          when a reporting entity does not demonstrate that significant
three Army financial statement assertions             internal controls are operating effectively.  Among other
for examination despite significant internal          recommendations, we recommend that the ASA(FM&C) increase
control problems.  This occurred because FIAR         oversight of audit readiness contracts and the Chief of Contracting,
Directorate personnel deviated from FIAR              CEHNC, verify compliance with the reimbursable orders policy.
Guidance.  As a result, ASA(FM&C) personnel
expended funds on examinations in areas with
known internal control weaknesses.                    Management Comments and
The      ASA(FM&C)         contracting   officer’s
                                                      Our Response
representative     (COR)     did    not  perform      The response from the Under Secretary of Defense (Comptroller)/
appropriate contract oversight and surveillance       Deputy Chief Financial Officer, DoD, on Recommendation A
on the Army General Fund audit readiness              partially addressed the recommendation; however, we request
contract.  Specifically, the COR did not perform      additional comments. The response from the ASA(FM&C) was
onsite monitoring of the contractor, adequately       partially responsive on Recommendation B.2.b, but not on
document contractor performance or report the         Recommendation B.2.a.     Additionally, the response from the
contractor’s performance in accordance with           Chief of Contracting, CEHNC, addressed all of the aspects of the
                                                      recommendations, and we do not require additional comments.
                                                      Please see the Recommendation Table on the next page
Visit us on the web at www.dodig.mil


                                                                           DODIG-2014-056 (Project No. D2012-D000FI-0111.000) │ i
                   Recommendations Table
                                                                  Recommendations       No Additional
                                       Management                 Requiring Comment   Comments Required
                    Under Secretary of Defense (Comptroller)/    A
                    Deputy Chief Financial Officer, DoD
                    Assistant Secretary of the Army (Financial   B.2.a                B.2.b
                    Management and Comptroller)
                    Chief of Contracting, U.S. Army Corps of                          B.1.a, B.1.b, B.1.c,
                    Engineers – Huntsville Engineering and                            B.1.d, B.1.e, C.1, C.2,
                    Support Center                                                    C.3

                   Please provide comments by May 8, 2014.




ii │ DODIG-2014-056 (Project No. D2012-D000FI-0111.000)
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                4800 MARK CENTER DRIVE
                             ALEXANDRIA, VIRGINIA 22350-1500


                                                                                  April 8, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                	 FINANCIAL OFFICER, DOD
                AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Army Financial Improvement Plans Generally Managed Effectively, but Better
         Contract Management Needed (Report No. DODIG-2014-056)

We are providing this report for review and comment. Army personnel generally managed
10 Army General Fund Financial Improvement Plans in an effective manner. However, Financial
Improvement and Audit Readiness personnel approved three Army financial statement
assertions despite known deficiencies. Additionally, the contracting officer’s representative
did not perform appropriate contract oversight and surveillance on the Army General Fund
audit readiness contract, valued at $90.1 million, and the contracting office used inadvisable
accounting practices. The audit took longer than expected because the scope was expanded
to include Army assertions made after the audit start. The report is still relevant because
the Army plans to make additional assertions in FY 2014 and still oversees audit readiness
contracts in conjunction with the Army financial improvement plan.

We considered management comments on a draft of this report when preparing the final
report. DoD Directive 7650.3 requires that recommendations be resolved promptly. The
response from the Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer,
DoD, on Recommendation A, partially addressed the recommendation; however, we request
additional comments. The response from the Assistant Secretary of the Army (Financial
Management and Comptroller) addressed all the specifics of Recommendation B.2.b; however,
the response did not address the specifics of Recommendation B.2.a. Therefore, we request
additional comments on Recommendations A and B.2.a by May 8, 2014. The response
from the Chief of Contracting, U.S. Army Corps of Engineers – Huntsville Engineering and
Support Center, addressed all of the specifics of the recommendation, and we do not require
additional comments.

Please send a PDF file containing your comments to audfmr@dodig.mil. Copies of your comments
must have the actual signature of the authorizing official for your organization. We cannot
 accept the /Signed/ symbol in place of the actual signature. If you arrange to send classified
comments electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff.        Please direct questions to me at
(703) 604-8905.

                                             Lorin T. Venable, CPA
                                             Assistant Inspector General
                                             Financial Management and Reporting



                                                                                          DODIG-2014-056 │ iii
                  Contents
                  Introduction
                      Objective________________________________________________________________________________________1
                      Background_ ___________________________________________________________________________________1
                      Review of Internal Controls __________________________________________________________________5

                  Finding A. Plans Generally Managed in an Effective
                  Manner, but Assertions Approved Before Known
                  Control Problems Corrected__________________________________________________6
                      Methodology Phases and Assertions_________________________________________________________7
                      Plans Generally Managed in an Effective Manner ___________________________________________8
                      Assertions Approved Despite Known Deficiencies________________________________________ 10
                      Funds Expended in Areas With Known Internal Control Weaknesses_ _________________ 15
                      Cost-Benefit Analysis Needed in FIAR Guidance __________________________________________ 15
                      Conclusion____________________________________________________________________________________ 16
                      Recommendation, Management Comments, and Our Response_________________________ 17

                  Finding B. Appropriate Contract Oversight Not
                  Performed and Adequate Resources Not Provided________ 18
                      Guidance for Contract Oversight___________________________________________________________ 19
                      Contract Oversight Was Inadequate _______________________________________________________ 19
                      Adequate Resources Not Provided_________________________________________________________ 23
                      Conclusion____________________________________________________________________________________ 29
                      Recommendations, Management Comments, and Our Response________________________ 29

                  Finding C. Enhanced Oversight Required for Financial
                  Administration of the Contract___________________________________________ 34
                      Incorrect Obligation of Funds_______________________________________________________________ 35
                      Reimbursable Order Policy Not Followed Once Issued___________________________________ 37
                      Mismatched Obligations on the Audit Readiness Contract_______________________________ 38
                      Conclusion____________________________________________________________________________________ 41
                      Recommendations, Management Comments, and Our Response _______________________ 42




iv │ DODIG-2014-056
Appendixes
 Appendix A. Scope and Methodology_ _____________________________________________________ 44
       Use of Computer-Processed Data ___________________________________________________ 45
 Appendix B. Prior Coverage_________________________________________________________________ 47
 Appendix C. Cost-Effective Strategy Not Used to Award Audit
 	 Readiness Contract________________________________________________________________________ 50
       Contracting Office Selection Process________________________________________________ 50
       Contract Transfer Plans Delayed_____________________________________________________ 52
 Appendix D. Priorities for Achieving Audit Readiness____________________________________ 53
       Plan to Achieve Auditable General Fund Statement of Budgetary Resources____ 53
       Plan to Achieve Auditability of Existence and Completeness Financial
       	 Improvement Plans_ _______________________________________________________________ 54
 Appendix E. Army General Fund Audit Readiness Contract Deliverables and
 	 Contract Line Item Numbers_____________________________________________________________ 56
 Appendix F. Summary of the Contracting Officer’s Representative File Review________ 58

Management Comments
 Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer, DoD_______ 61
 Assistant Secretary of the Army (Financial Management and Comptroller)____________ 63
 Chief of Contracting, U.S. Army Corps of Engineers – Huntsville Engineering
 	 and Support Center_ ______________________________________________________________________ 65

Acronyms and Abbreviations______________________________________________ 71




                                                                                                   DODIG-2014-056 │ v
                                                                                                                                 Introduction




Introduction
Objective
Our objective was to determine whether the Department of the Army effectively
managed its Financial Improvement Plan (FIP), including contractor support, to meet
Financial Improvement and Audit Readiness (FIAR) goals. Specifically, we focused on
the FIAR priorities of improving budgetary information and verifying the existence
and completeness of mission critical assets.1 We also assessed the Army’s compliance
with FIAR Guidance when developing 10 Army General Fund (AGF) FIPs. The Army
depends heavily on contractor support to carry out its audit readiness efforts.
Consequently, we reviewed Army’s contract oversight and financial administration
of audit readiness contracts.                   See Appendix A for a discussion of the scope and
methodology and Appendix B for prior audit coverage.


Background
DoD did not have an audit opinion on its FY 2012 financial statements. It is one of
the 24 entities required by Public Law 101-576, “Chief Financial Officers Act of 1990,”
as amended by the Government Management Reform Act of 1994.                                                          Public
Law 101-576 section 303, “Financial Statements of Agencies,” November  15,  1990,
mandates preparing financial statements and an annual audit of those financial
statements in accordance with generally accepted government auditing standards.
Public Law 111-84, “National Defense Authorization Act for Fiscal Year 2010,” section
1003, “Audit Readiness of Financial Statements of the Department of Defense,”
(FY 2010 National Defense Authorization Act), October 28, 2009, requires auditable
DoD financial statements by September 30, 2017. The FY 2010 National Defense
Authorization Act also requires DoD to develop and maintain a FIAR Plan.

The FIAR Plan identifies DoD’s strategy for improving financial management,
prioritizing needs, and identifying the dependencies preventing auditability.                                             To
that end, the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
DoD (USD[C]/CFO), issued the first FIAR Plan in December 2005 and, thereafter,
semiannual updates in May and November.                                    The semiannual updates include
each DoD Component’s plan for achieving auditable financial statements.  The
USD(C)/CFO             also     established        the      FIAR      Directorate         to    provide       day-to-day

	1	
      Mission critical assets are military equipment, general equipment, real property, inventory, and operating materials and
      supplies. On September 20, 2013, DoD issued a memorandum that, among other things, combined military equipment and
      general equipment into a single category entitled “General Equipment.”




                                                                                                                             DODIG-2014-056 │ 1
Introduction



                 management of the FIAR Plan and verify that DoD-wide financial improvement
                 efforts were integrated with functional community improvement activities.  The
                 FIAR Directorate developed FIAR Guidance, which defines DoD’s goals, priorities,
                 strategy, and methodology for audit readiness (including roles, responsibilities,
                 and processes for reporting entities and service providers). The FIAR Directorate
                 periodically updates the FIAR Guidance.


                 Goal, Priorities, and Strategy for the Financial Improvement
                 and Audit Readiness
                 On August 11, 2009, the USD(C)/CFO, established FIAR priorities as verifying the
                 existence of mission critical assets and improving budgetary information and
                 processes. The USD(C)/CFO also directed reporting entities to modify and regularly
                 update their FIPs to achieve FIAR priorities.       On October 13, 2011, the Secretary
                 of Defense issued a memorandum that accelerated the audit readiness of the
                 Statement of Budgetary Resources (SBR) for General Fund reporting entities to the
                 end of FY  2014. Public Law 112-81, “National Defense Authorization Act for Fiscal
                 Year 2012,” section 1003, “Additional Requirements Relating to the Development of
                 the Financial Improvement and Audit Readiness Plan,” (FY 2012 National Defense
                 Authorization Act), December 31, 2011, states the semiannual updates to the
                 FIAR Plan should include:

                        a plan, including interim objectives and a schedule of milestones
                        for each military department and for the defense agencies, to support
                        the goal established by the Secretary of Defense that the statement
                        of budgetary resources is validated for audit by not later than
                        September 30, 2014.  …[T]he plan shall include process and control
                        improvements and business systems modernization efforts necessary for
                        the Department of Defense to consistently prepare timely, reliable, and
                        complete financial management information.


                 The FIAR strategy provides the critical path for DoD while balancing the need to
                 achieve short-term accomplishments with the long-term goal of an unqualified
                 opinion on the DoD financial statements.  The FIAR strategy groups and
                 prioritizes the material business processes within four waves:

                         •	 Appropriations Received,

                         •	 SBR,




2 │ DODIG-2014-056
                                                                                                                               Introduction



            •	 Mission Critical Asset Existence and Completeness, and

            •	 Full Audit Except for Existing Asset Valuation.

The ultimate goal of the FIAR strategy is achieving a full financial statement audit.2


Methodology Includes Phased Approach to Achieve
Audit Readiness
The FIAR Directorate developed the FIAR Methodology, which is a specific, detailed,
and phased approach to comply with the overall requirements in the FIAR Guidance
and achieve audit readiness. In September 2011, the Government Accountability Office
determined that the May 2010 FIAR Guidance provides a reasonable methodology
for DoD reporting entities to use when developing and implementing their FIPs.3 The
FIAR Methodology contains six phases that reporting entities must comply with as
they move toward audit readiness. The six phases of the FIAR Methodology contained
in the FIAR Guidance4 are summarized in Table 1.

Table 1. FIAR Methodology
               FIAR Methodology Phase                                         Summary of Activities
                                                              Management documents business environment,
                                                              prioritizes processes into assessable units,
 1.0 Discovery                                                assesses risk and tests controls, evaluates
                                                              supporting documentation, and identifies
                                                              weaknesses and deficiencies.
                                                              Management designs audit ready environment,
                                                              develops and documents solutions, identifies
 2.0 Corrective Action                                        resources to implement actions, and defines
                                                              validation procedures to verify that corrective
                                                              action remediated the deficiency.
                                                              Management tests corrective actions and
 3.0 Evaluation                                               determines whether it can assert as audit ready.
                                                              Management submits assertion documentation
                                                              to FIAR Directorate and DoD Office of Inspector
                                                              General. Documentation includes statement
 4.0 Assertion                                                that controls are designed and operating
                                                              effectively based on work performed in Phases
                                                              1 through 3.




	2	
    DoD memorandum, “Elimination of Military Equipment Definition and Increase to Capitalization Thresholds for General
    Property, Plant and Equipment,” dated September 20, 2013, implemented changes to refocus Department efforts on
    valuing General Property, Plant, and Equipment. The November 2013 FIAR Guidance updated the FIAR strategy to reflect
    the new valuation requirements.
	3	
    Report No. GAO-11-851, “DOD Financial Management: Improvement Needed in DOD Components’ Implementation of
    Audit Readiness Effort,” September 13, 2011.
	4	
    The FIAR Guidance, updated in March 2013, accelerated involving an independent public accounting firm and reduced the
    FIAR Methodology from six to five phases.




                                                                                                                            DODIG-2014-056 │ 3
Introduction



                                 FIAR Methodology Phase                                          Summary of Activities
                                                                                 FIAR Directorate and DoD Office of Inspector
                                                                                 General reviews assertion documentation,
                     5.0 Validation                                              provides feedback, and engages auditors to
                                                                                 perform examination of assertion.
                                                                                 DoD Office of Inspector General or an
                     6.0 Audit                                                   independent public accounting firm audits
                                                                                 financial statements.

                 Source: DoD FIAR Directorate


                 Financial Improvement Plans
                 The FIAR Plan is comprised of the individual FIPs prepared by the reporting
                 entities.  The Assistant Secretary of the Army (Financial Management and Comptroller)
                 (ASA[FM&C]) is responsible for managing the Army’s audit readiness activities
                 with appropriate direction, guidance, and oversight.                                    The Accountability and
                 Audit Readiness Directorate, Deputy Assistant Secretary of the Army (Financial
                 Operations), is responsible for managing the Army FIPs.                                    The FIPs serve as the
                 Army’s roadmap to achieving a favorable audit opinion on its annual financial
                 statements.          The Army FIPs include the goals, objectives, and tasks that must be
                 completed for the Army to provide its commanders, leaders, and managers with
                 quality financial information for decision making on a consistent and routine basis.


                 Contracts Awarded to Address Auditability
                 U.S. Army Corps of Engineers (USACE) – Huntsville Engineering and Support Center
                 (CEHNC) personnel awarded three service contracts for ASA(FM&C) to address
                 problems preventing the auditability of the AGF and Army Working Capital Fund
                 (AWCF) financial statements. On September 28, 2010, CEHNC personnel awarded the
                 AGF audit readiness contract to International Business Machines (IBM). The contract
                 contained time-and-material, firm-fixed-price, and cost-reimbursable elements. Also,
                 the contract expired on April  9, 2013, before the end of the third option period
                 (September 27, 2013) when it reached the contract ceiling.5 The contract was closed
                 out in January 2014,6 with a total cost of $90.1 million. CEHNC personnel awarded a
                 follow-on AGF audit readiness contract to IBM. The follow-on contract has a ceiling
                 of $57.5 million and is a combination of firm-fixed-price and cost-reimbursable
                 elements. This contract is scheduled to expire on July 9, 2014. The AWCF audit


                 	5	
                     Based on input from ASA(FM&C), CEHNC’s internal tracking of disbursements, and the contractor’s cost estimates, the
                     Army estimated the contract ceiling would be reached in April 2013.
                 	6	
                     After receiving the final contactor invoice in December 2013, CEHNC personnel modified and closed out the contract in
                     January 2014. They deobligated excess funds that reduced the ceiling price of the contract from $92.5 million to
                     $90.1 million.



4 │ DODIG-2014-056
                                                                                                                                   Introduction



readiness contract was awarded on March  30, 2012, to PricewaterhouseCoopers LLP.7
The contract has a ceiling of $7.3 million and is also a combination of time-and-material,
firm-fixed-price, and cost-reimbursable elements. The contract is scheduled to expire
on March 31, 2015, at the end of the second option period.  See Appendix C
for a discussion of our concerns with the strategy used to award Army audit
readiness contracts.

ASA(FM&C) personnel, in conjunction with functional experts throughout the
Army and Defense Finance and Accounting Service, developed the AGF FIP.8 As of
December  4,  2012, there were 10  AGF FIPs.                            See Appendix C for our assessment
of how well the Army managed these FIPs. More details on the 10  FIPs and the
Army’s plan for meeting FIAR milestones are in Appendix  D. On February  28,  2013,
ASA(FM&C) personnel submitted an AWCF FIP covering Inventory.9  As of
April  2013, the Accountability and Audit Readiness Directorate had approximately
20  Government employees assigned to the office, including the contracting officer’s
representative (COR). The same person served as the COR for both the AGF and
AWCF audit readiness contracts.                      As of April  2013, the AGF contract had at least
225 contractor personnel charging labor hours and travel expenses to the contract.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May  30,   2013, requires DoD organizations to implement a comprehensive system
of internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified internal
control weaknesses in the oversight and administration of the AGF audit readiness
contract. Specifically, the COR did not perform appropriate contract oversight and
surveillance on the AGF audit readiness contract because the CEHNC contracting
officers (COs) did not ensure that the COR had the necessary resources to perform
adequate oversight.                Additionally, CEHNC personnel did not follow the USACE
reimbursable orders policy.                    Also, CEHNC personnel obligated different funding
appropriations           in     the     Corps        of    Engineers          Financial        Management             System
(CEFMS) than what was on the contract because they did not have the internal
control mechanisms designed to prevent or identify such errors. We will provide
a copy of the report to the senior official responsible for internal controls in the
Department of the Army.


	7	
     We did not review the financial administration or oversight for the AWCF audit readiness contract.  See Appendix A for a
     discussion of the scope and methodology.
	8	
     The AGF FIP consists of several FIPs that represent significant segments of the financial statements.
	 9	
     The audit team did not review the AWCF Inventory FIP.


                                                                                                                                DODIG-2014-056 │ 5
Finding A




                 Finding A
                 Plans Generally Managed in an Effective Manner,
                 but Assertions Approved Before Known Control
                 Problems Corrected
                 ASA(FM&C) personnel generally managed 10 AGF FIPs10 in an effective manner and
                 made 611 assertions focused on the 2 FIAR priorities.                                  However, FIAR Directorate
                 personnel approved three Army financial statement assertions for examination
                 despite significant internal control problems. This occurred because FIAR Directorate
                 personnel deviated from the applicable FIAR Guidance when they approved the use of
                 independent auditors before the Army could achieve and sustain effective internal
                 controls over SBR business processes and relied on substantive testing results for
                 quick win assertions related to mission critical assets. FIAR Directorate personnel later
                 revised the FIAR Guidance in March 2013.12

                 As a result, ASA(FM&C) personnel expended funds on examinations in areas with
                 known internal control weaknesses without conducting a cost-benefit analysis. The
                 lack of an effective internal control environment increased the risk of the Army not
                 meeting its auditability timelines and sustaining progress made toward auditable
                 financial statements.


                 	10	
                        As of December 4, 2012, there were 10 AGF FIPs. See Appendix D for more details on the 10 FIPs and the Army’s plan for
                        meeting FIAR milestones.
                 	11	
                        On June 28, 2013, ASA(FM&C) asserted that GFEBS SBR Wave 3 was audit ready; however, we did not review
                        the assertion.
                 	12	
                        The FIAR Directorate updated the FIAR Guidance in March 2013 and November 2013. The November 2013 FIAR Guidance
                        did not change the FIAR Methodology.




6 │ DODIG-2014-056
                                                                                              Finding A



Methodology Phases and Assertions
FIAR Methodology Phase 3.0, Evaluation, is where entities test and evaluate their
internal controls in accordance with the December 2011 FIAR Guidance.             As part
of the Army’s effort to improve internal controls, ASA(FM&C) personnel conducted
site visits, training, and monthly sampling of internal control processes. As shown in
Figure 1, the final step in the Evaluation Phase for a DoD Component is to determine
whether corrective actions were successful. The DoD Component should move to the
Assertion Phase when testing indicates that corrective actions were successful.

Figure 1. Final Evaluation Step for Determining Whether Corrective Actions
Were Successful




Source: December 2011 FIAR Guidance

After a DoD Component asserts to audit readiness of a financial statement segment,
FIAR Directorate personnel review the assertion documentation to verify that it
meets the FIAR Guidance requirements and is ready for an independent public
accounting firm or the DoD Office of Inspector General to validate. Based on the
review, the Under Secretary of Defense (Comptroller)/Deputy Chief Financial
Officer, DoD (Deputy Chief Financial Officer), issues a memorandum to the DoD
Component to either proceed with the assertion examination or stop and fix
deficiencies identified during the FIAR Directorate’s review before proceeding
to the Validation Phase.    Before June  2013, ASA(FM&C) personnel made six audit
readiness assertions related to the FIAR priorities.  We performed a detailed
review of the last three Army assertions.




                                                                                        DODIG-2014-056 │ 7
Finding A



                 Plans Generally Managed in an Effective Manner
                 ASA(FM&C) personnel generally managed AGF audit readiness activities in an
                 effective manner.  Specifically, ASA(FM&C) personnel developed 10 AGF FIPs for
                 significant segments of the financial statements in accordance with the FIAR Guidance.
                 As of December 4, 2012, ASA(FM&C) personnel developed the 10 FIPs in Table 2
                 to help the Army meet the FIAR priorities.

                 Table 2. AGF FIPs as of December 4, 2012
                             Statement of Budgetary Resources                                    Existence and Completeness
                     Budgetary Authority                                            Military Equipment
                     Budget Execution                                               General Equipment
                     Fund Balance With Treasury                                     Operating Materials and Supplies
                     Military Pay                                                   Real Property
                     Financial Reporting                                            Environment Liabilities
                 Source: ASA(FM&C)

                 The         AGF       FIPs      generally         complied         with       the      FIAR       Guidance,         including
                 incorporating applicable financial statement assertions, FIAR Methodology tasks,
                 Key Control Objectives,13 Key Supporting Documents,14 and Corrective Action
                 Plans.         With the assistance of audit readiness contractor personnel employed to
                 develop the FIPs, ASA(FM&C) personnel began to address problems preventing
                 the auditability of the AGF SBR and existence and completeness of mission critical
                 assets.  ASA(FM&C) and audit readiness contractor personnel also conducted
                 audit readiness training, performed site assistance visits, developed guidance
                 as needed, and strived to meet self-imposed milestones.                                       Based on the progress
                 made, ASA(FM&C) personnel requested approval from the FIAR Directorate to
                 continue with audit readiness efforts.                                ASA(FM&C) personnel asserted audit
                 readiness of Appropriations Received15 and selected SBR processes at General Fund
                 Enterprise Business System (GFEBS) Waves 1 and 2 installations and commands16


                 	13	
                        Key Control Objectives are control objectives entities must achieve by designing and implementing effective control
                        activities. The FIAR Guidance updated in March 2013 retitled “Key Control Objectives” as “Financial Reporting Objectives.”
                 	14	
                        For SBR audits, Key Supporting Documents are the internal control documentation and supporting documentation
                        necessary to support activity and balances asserted as audit-ready. For existence and completeness audits,
                        Key Supporting Documents are internal control documentation; substantive, supporting documentation used by the
                        reporting entity to directly demonstrate financial statement assertions; and financial management data representing
                        supported data fields in Accountable Property Systems of Record that substantiate financial reporting assertions and
                        management or budget information.
                 	15	
                        Appropriations Received is a material line item on the AGF Combined SBR and represents legal authority for Federal
                        agencies to incur obligations and make payments out of the Treasury for specified purposes. On the FY 2012 AGF Financial
                        Statements, the Army represented that Appropriations Received was approximately $202 billion.
                 	16	
                        The Army deployed GFEBS in multiple “waves,” and these waves are different from the FIAR strategy waves. The Army
                        began deploying GFEBS at Wave 1 installations in April 2009.




8 │ DODIG-2014-056
                                                                                                          Finding A



to help achieve an auditable SBR by September 30, 2014.              ASA(FM&C) personnel
also asserted audit readiness of the existence and completeness of select (quick
win) military equipment and general equipment, Operating Materials and Supplies
(OM&S), and real property assets to help achieve full financial statement auditability
by September 30, 2017, as required by the FY 2010 National Defense Authorization
Act.  Table 3 identifies the date of each Army assertion and the outcome of
the assertion as of June 30, 2013.

Table 3. ASA(FM&C) Assertions as of June 30, 2013
      Army Assertion            Assertion Date                       Result
 Appropriations Received    September 28, 2010   Independent public accounting firm issued
                                                 unqualified opinion on August 19, 2011.
 Funds Distribution         March 31, 2011       Independent public accounting firm issued
 and Budget Execution                            qualified opinion on November 22, 2011.
 Processes at GFEBS
 Wave 1 Installations and
 Commands
 Existence and              March 31, 2011       DoD Office of Inspector General issued a
 Completeness of Military                        memorandum on June 3, 2011, to FIAR
 Equipment and General                           Directorate recommending that the
 Equipment Quick Win                             Army not proceed to examination. The
 Assets                                          Deputy Chief Financial Officer issued a
                                                 memorandum to the ASA(FM&C) on July
                                                 28, 2011, concluding that the Army did not
                                                 demonstrate audit readiness and should
                                                 implement and test corrective actions
                                                 before examination.
 Control Environment at     June 29, 2012        FIAR Directorate approved the assertion
 GFEBS Waves 1 and 2                             on July 20, 2012. On April 9, 2013, the
 Installations                                   independent public accounting firm issued
                                                 its report. The report stated that because
                                                 of the effect of a material deviation from
                                                 FIAR Guidance and the material weaknesses
                                                 identified, the design and operating
                                                 effectiveness of the Army’s control activities
                                                 and the sufficiency and availability of the
                                                 documentation supporting control activities
                                                 were not in conformity with audit readiness
                                                 criteria in all material respects.
 Existence and              June 30, 2012        FIAR Directorate approved the assertion
 Completeness of OM&S                            on June 28, 2012. On April 29, 2013, the
 Quick Win Assets                                DoD Office of Inspector General issued
                                                 a memorandum stating that except for
                                                 reporting deficiencies associated with
                                                 missiles held at the contractor’s facilities and
                                                 material in transit, the assertion was fairly
                                                 stated.
 Existence and             January 7, 2013       FIAR Directorate approved the assertion on
 Completeness of Real                            March 28, 2013, and issued a contract in
 Property Quick Win Assets                       June 2013.
Source: ASA(FM&C) and FIAR Directorate




                                                                                                    DODIG-2014-056 │ 9
Finding A



                 Assertions Approved Despite Known Deficiencies
                 FIAR Directorate personnel approved the two AGF June 2012 assertions and the
                 January 2013 quick win assertion despite known deficiencies. Specifically, for the
                                            GFEBS Waves 1 and 2 assertion, ASA(FM&C) personnel
                                                did not adhere to the FIAR Guidance when they
                           ASA(FM&C)
                         personnel did            did not provide evidence to demonstrate effective
                     not demonstrate that           implementation of corrective actions.  However, FIAR
                    the Army had effective           Directorate personnel supported an independent
                     controls or could rely
                                                     examination before the Army could achieve and
                     on its internal control
                          environment.             sustain effective internal controls. For the mission
                                                 critical assets (OM&S and real property) quick win
                                             assertions, ASA(FM&C) personnel did not demonstrate
                 that the Army had effective controls or could rely on its internal control
                 environment. Instead, they relied heavily on substantive testing.17  Subsequently,
                 FIAR Directorate personnel revised the FIAR Guidance to pursue examination
                 activities earlier in the process.


                 GFEBS Waves 1 and 2 Assertion Approved Despite Internal
                 Control Deficiencies
                 Despite FIAR Directorate personnel concluding that the Waves 1 and 2 assertion
                 was not ready for the type of examination envisioned by the FIAR Guidance, on
                 July  20,   2012, the Deputy Chief Financial Officer approved ASA(FM&C)’s GFEBS
                 Waves 1 and 2 assertion package for examination. For the period from April   2012
                 through June  2012, ASA(FM&C) personnel performed an evaluation of the control
                 environment at GFEBS Waves 1 and 2 installations and asserted it was audit ready
                 on June  29,  2012. This assertion was part of the Army’s overall effort to achieve
                 an auditable SBR by FY  2014.                        The scope of the Army’s GFEBS Waves 1 and 2
                 assertion included 10 of 227 installations where the system was fielded. ASA(FM&C)
                 personnel stated the following in their GFEBS Waves 1 and 2 assertion package:

                              [t]he results of test of operating effectiveness of internal controls across
                              the various categories of controls (e.g. Army manual, DFAS manual, GFEBS



                 	17	
                        Auditors perform substantive testing of balances to obtain evidence that provides reasonable assurance about whether the
                        financial statements and related assertions are free of material misstatement. There are two types of substantive testing:
                        substantive analytical procedures and tests of details. Substantive analytical procedures involve the auditor’s comparison
                        of a recorded amount with an expectation of that amount and subsequent investigation of any significant differences to
                        reach a conclusion on the recorded amount. Tests of details are procedures applied to individual items selected by the
                        auditor for testing and include confirmation of a balance or transaction, physical observation of assets, examination of
                        supporting documentation, and recalculation of balances.




10 │ DODIG-2014-056
                                                                                                 Finding A



       automated, etc.) are largely ineffective. However, for the controls tested,
       the results of test of design were largely effective. As such, the capability
       to mitigate risks does exist in the Army environment. Army’s challenges
       with maintaining effective manual controls are primarily due to the
       size of the organization and the large volume of transactions processed
       daily. Among Army’s highest priorities for corrective action is decreasing
       the reliance on manual controls and implementing automated controls
       in GFEBS.


FIAR Directorate personnel stated that, in discussions subsequent to ASA(FM&C)’s
assertion, ASA(FM&C) personnel stated that corrective actions were implemented
and controls were operating effectively at GFEBS Waves 1 and 2 locations. However,
the Deputy Chief Financial Officer further stated that ASA(FM&C) did not fully retest
remediation actions because of time constraints and, as a consequence, did not
provide evidence along with the assertion to demonstrate effective implementation
of corrective actions.    The Deputy Chief Financial Officer recommended that the
Army proceed with an examination by an independent public accounting firm, but
remain in the Evaluation Phase because FIAR Directorate personnel wanted to
support ASA(FM&C)’s decision to proceed with an independent public accounting
firm to assess progress in addressing control weaknesses.


Basis for Allowing GFEBS Waves 1 and 2 Assertion to Proceed
ASA(FM&C) personnel did not provide evidence that demonstrated effective
implementation of corrective actions within its assertion package. The FIAR Guidance
states that entities must achieve and sustain effective internal
controls to demonstrate SBR audit readiness.           However,
FIAR Directorate personnel determined that there                           FIAR
could be value in pursuing examination activities                       Directorate
                                                                  personnel determined
earlier in the process, which was the basis for allowing           that there was more
the GFEBS Waves 1 and 2 assertion to proceed.                      value in engaging an
The Deputy Chief Financial Officer stated in the                   independent public
                                                                    accounting firm to
approval memorandum for the GFEBS Waves 1 and
                                                                   pursue examination
2 assertion that under normal circumstances, FIAR                        activities.
Directorate personnel would have asked ASA(FM&C)
personnel to resubmit the package after ASA(FM&C)
personnel confirmed they had sufficient audit evidence to support transactions and
balances. However, he stated that in this case, FIAR Directorate personnel determined
that there was more value in engaging an independent public accounting firm to




                                                                                          DODIG-2014-056 │ 11
Finding A



                 pursue examination activities to complete the Evaluation Phase.     FIAR Directorate
                 personnel stated on September  12,  2012, that they recognized through past lessons
                 learned that there could be value in pursuing examination activities earlier in the
                 process.   As a result, they recommended changing the FIAR Guidance to entities
                 to perform an examination asserting audit readiness.

                 However, when the Army made the assertion, ASA(FM&C) personnel could not
                 confirm that internal controls were in place and operating effectively.  Public
                 Law 112-239, “National         Defense Authorization Act for Fiscal Year 2013,”
                 section 1005, “Audit Readiness of Department of Defense Statements of Budgetary
                 Resources,” January  2,  2013, which amended Public Law 111-84, “National
                 Defense Authorization Act for Fiscal Year 2010,” section 1003(a)(2)(A)(ii),
                 October 28, 2009, requires the Chief Management Officer and the Chief
                 Management Officers for each Military Department to verify that plans to achieve an
                 auditable SBR by September  30,  2014, include appropriate steps to minimize
                 one-time fixes and manual workarounds, are sustainable and affordable, and will not
                 delay full auditability of financial statements.

                 The continuing challenge for the Army is ensuring that business process owners
                 at all levels implement effective internal controls to maintain sustainable
                 auditable financial statements.  In June 2012, the Army began testing for
                 subsequent SBR planned assertions, with a focus on determining whether proper
                 internal controls were in place.         The Winter 2013 newsletter for ASA(FM&C)
                 stated that the results of control testing indicate that significant improvement was
                 needed in the internal control environment.  Further, it stated, “[b]ased on the
                 high percentage of failed samples, it does not appear that the current command
                 corrective action efforts are effective.” Subsequent internal control and substantive
                 testing performed by ASA(FM&C) and reported during the 2nd quarter FY 2013
                 Army FIP In-Process Review indicated similar results. The internal control testing
                 indicated that 55 percent of the samples did not pass, and substantive testing
                 indicated that of the samples tested, approximately 30 percent were unsupported and
                 57 percent were unsupportable.




12 │ DODIG-2014-056
                                                                                           Finding A



Mission Critical Asset Assertions Approved Despite Internal
Control Deficiencies
FIAR Directorate personnel approved ASA(FM&C)’s mission critical asset assertions
despite the Army having ineffective controls and not relying on its internal
control environment.       ASA(FM&C)’s OM&S quick win assertion covered about
98,000  assets in three tactical missile programs (Tube-launched, Optically-tracked,
Wire-command link; Javelin; and Hellfire missiles).        From February 2011 through
January  2012, ASA(FM&C) personnel and audit readiness contractor personnel
conducted field-level discovery, evaluation, and internal control testing of the
three missile types included in the scope of the assertion.  The Director of the
Accountability and Audit Readiness Directorate provided a June  2012 memorandum
to the Director, FIAR, with the assertion package and stated that:

       the existence and completeness of the Army’s operating materials
       and supplies “Quick Win” programs, as defined in the attached
       documentation, are ready for audit. This assertion does not rely on the
       internal control environment, but is based on the results of substantive
       existence and completeness testing, including reconciliations with the
       accountable property system of record and installation &/or unit-level
       physical inventories.


On June 28, 2012, the Deputy Chief Financial Officer issued a memorandum
approving the OM&S quick win assertion package for examination.  However,
ASA(FM&C) personnel identified several deficiencies within their OM&S quick
win assertion package. These deficiencies included:

         •	 the Army could not produce transaction-based financial statement
           balances for OM&S from its Enterprise Resource Planning systems.
           Rather, financial reporting was based on static asset balances at the
           end of the period.

         •	 every internal control tested at the retail and wholesale locations did
           not pass financial reporting tests of design.

         •	 the Army did not rely on the internal control environment based on
           the results of its internal control testing and the related corrective
           actions identified as part of the internal control testing.




                                                                                    DODIG-2014-056 │ 13
Finding A



                 ASA(FM&C) personnel also asserted audit readiness of the existence and completeness
                 of real property quick win assets on January  7, 2013. Similar to the OM&S quick win
                 assertion, ASA(FM&C) personnel stated they did not rely on the internal control
                 environment because corrective actions were still underway.             On March 28, 2013,
                 FIAR Directorate personnel approved the assertion. In the memorandum approving
                 the assertion FIAR Directorate personnel stated that an independent examination
                 of the existence and completeness of real property assets at the 23 installations will
                 provide valuable insight to the Army regarding its strategy and approach to achieving
                 its goal of audit readiness for the entirety of its real property in 2014. However,
                 FIAR Directorate personnel also provided recommendations to the Army for future
                 consideration, including the need to improve internal controls over real property
                 assets. They recognized that given the size and breadth of the Army’s real property
                 population, substantive testing alone was inadequate.          Key control activities will
                 need to be documented, tested, and verified as effective.


                 Basis for Allowing Mission Critical Asset Assertions to Proceed
                 Despite known deficiencies, the Deputy Chief Financial Officer approved the OM&S
                 and real property quick win assertions. On September 12, 2012, FIAR Directorate
                 personnel stated that, in their opinion, an acceptable mix of internal control and
                 substantive testing for audit readiness depended on the size of the population. The
                 FIAR Guidance allows entities to assert audit readiness using substantive testing
                 when internal controls are ineffective.  However, this should occur when the
                 population is very small, thus allowing the entity to demonstrate audit readiness
                 while completing work on internal controls.        The FIAR  Guidance states that for
                 populations with a large number of items or with a high volume of transaction
                 activity, it is more effective and efficient to place reliance on internal controls,
                 which   requires   detailed   control   documentation,      including    risk   assessments,
                 Key Control Objectives, and control assessments.       Additionally, the FIAR  Guidance
                 states that entities must achieve and sustain effective internal controls to
                 demonstrate audit readiness for existence and completeness.

                 Ultimately, FIAR Directorate personnel concluded that the extent of ASA(FM&C)
                 personnel’s substantive testing was likely enough to counterbalance the larger
                 population of OM&S assets.        The FY 2012 National Defense Authorization Act
                 mandates that the FIAR Plan contain process and control improvements and business
                 system modernization efforts necessary for DoD to consistently prepare timely,
                 reliable, and complete financial management information.




14 │ DODIG-2014-056
                                                                                                                                        Finding A



Funds Expended in Areas With Known Internal
Control Weaknesses
ASA(FM&C) personnel expended funds for examinations in areas with known internal
control weaknesses.                 The audit readiness examinations performed in response to
Army assertions identified numerous internal control weaknesses similar to those
in assertion packages and in FIAR Directorate reviews. For example, the independent
public accounting firm contracted in July 2012 to review the Funds Distribution
and Budget Execution Processes at GFEBS Wave 1 Installations and Commands
identified several internal control weaknesses that were previously identified. The
results of the $2,025,588, Control Environment at GFEBS Waves 1 and 2 Installations
examination provided similar results.  Additionally, the Spring 2013 newsletter for
ASA(FM&C) stated that the independent public accounting firm’s notice of findings
and recommendations aligned with the findings that ASA(FM&C) already reported
in the Winter 2012 newsletter, namely that installations were not consistently
executing all of the controls as designed.


Cost-Benefit Analysis Needed in FIAR Guidance
FIAR Guidance does not require a cost-benefit analysis before making an assertion as
to audit readiness. December 2011 FIAR Guidance states that, any DoD Component
that had testing results that indicated controls were not designed or operating
effectively should return to the Corrective Action Phase. However, in March 2013, the
FIAR Directorate changed its FIAR Guidance to condense the previous six-phase
approach to five phases.  Consequently, the audit readiness assertion examination now
occurs in the Assertion or Evaluation Phase (Phase 3.0) after the FIAR Directorate
evaluates final “audit ready” documentation against audit readiness dealbreakers
to determine the audit readiness state.18 If FIAR Directorate personnel determine
that audit readiness dealbreakers are sufficiently addressed, the reporting entity
is to provide a management assertion letter declaring that the assessable unit is
audit ready in accordance with the requirements of the FIAR Guidance. Then, the
FIAR Directorate engages auditors (either an independent public accounting firm
or DoD Office of Inspector General) to perform an examination of the reporting
entity’s audit readiness assertion.                         Once the auditors submit their examination
report, along with its notice of findings and recommendations, the reporting entity
evaluates thenature and extent of the deficiencies reported, implements corrective

	18	
       Drawing on lessons learned from past audit readiness efforts, the FIAR Directorate compiled a list of dealbreakers that
       prevented reporting entities from achieving audit readiness. The March 2013 FIAR Guidance identified the 10 most
       common audit readiness dealbreakers.




                                                                                                                                 DODIG-2014-056 │ 15
Finding A



                 actions, and verifies that corrective actions successfully remediated deficiencies.
                 The Validation Phase (Phase 4.0) begins when the reporting entity submits the
                 examination      report   and   additional   documentation   demonstrating   successful
                 remediation of auditor identified deficiencies to the FIAR Directorate and DoD Office of
                 Inspector General.

                 Although the change in FIAR Guidance provided DoD Components with additional
                 flexibility when making an initial assertion as to audit readiness, it did not
                 require a cost-benefit analysis before proceeding with known significant internal
                 control weaknesses.  FIAR Directorate personnel should fully consider the cost of
                 performing an examination during the Assertion or Evaluation Phase when the
                 Army or another reporting entity does not demonstrate that significant internal
                 controls are operating effectively.  The analysis should consider the likelihood
                 that previously identified internal control weaknesses continue to exist and are
                 significant enough to result in material misstatements or a conclusion that account
                 balances are not fairly stated. The Deputy Chief Financial Officer should require a
                 cost-benefit analysis that fully considers the costs associated with performing an
                 independent examination during the Assertion or Evaluation Phase when a reporting
                 entity does not demonstrate that significant internal controls are operating
                 effectively.    As required by FIAR Guidance, DoD entities should proceed to the
                 Audit Phase when they demonstrate that internal controls are established and
                 working effectively.


                 Conclusion
                 ASA(FM&C) personnel generally managed 10  AGF FIPs in an effective manner
                 and made 6 assertions focused on the 2  FIAR priorities.         However, ASA(FM&C)
                 personnel submitted, and FIAR Directorate personnel approved, three Army financial
                 statement assertions for examination since June  2012 with known internal control
                 deficiencies.    Effective internal controls mitigate risks and provide assurance that
                 financial information is properly and accurately recorded and reported. Additionally,
                 internal controls are key to sustaining auditable financial statements. ASA(FM&C)
                 personnel need to continue to focus on internal control testing and ensure
                 that Army personnel at headquarters, commands, and installations design
                 internal controls correctly and implement them effectively.     Significant reliance on
                 substantive testing may eventually result in auditability but without strong,
                 well-designed internal controls that operate effectively, sustaining full auditable
                 financial statements is not achievable.      The Army should correct internal control
                 deficiencies as soon as possible during the Assertion or Validation Phase.  Doing



16 │ DODIG-2014-056
                                                                                               Finding A



otherwise risks the expenditure of funds to have independent auditors identify known
problems.    Without an effective internal control environment, ASA(FM&C) was at
an increased risk of not meeting its auditability timelines and might not be able to
sustain progress made toward auditable financial statements. Much work needs to
be done to achieve audit readiness of the AGF SBR by September 30, 2014, and the
complete set of financial statements by September 30, 2017.


Recommendation, Management Comments, and
Our Response
Recommendation A
We recommend that the Under Secretary of Defense (Comptroller)/Deputy Chief
Financial Officer, DoD, require a cost-benefit analysis that fully considers the costs
associated with performing an independent examination during the Assertion or
Evaluation Phase when a reporting entity does not demonstrate that significant
internal controls are operating effectively.


Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer,
DoD, Comments
The Deputy Chief Financial Officer partially agreed and stated that instead of the
recommended cost-benefit analysis, the Director, FIAR, would reassess the criteria the
FIAR Directorate used to evaluate audit readiness assertions. He also stated that new
review procedures will likely require all assertions to ascertain that the reporting
entity demonstrated internal controls operated effectively and that all dealbreakers
have been met before FIAR’s approval to move forward to an examination.


Our Response
The response from the Deputy Chief Financial Officer partially addressed the
recommendation. We support requiring reporting entities demonstrate that internal
controls are operating effectively and all dealbreakers have been met before the FIAR
Directorate approves audit readiness assertions. However, until the FIAR Guidance
is changed, the risk remains that resources will be expended inappropriately on
examinations.    We request additional comments on when the FIAR Directorate
plans to change the guidance and how it plans to mitigate the risk that resources
will be expended inappropriately if the FIAR Guidance is not changed to require effective
internal controls.




                                                                                        DODIG-2014-056 │ 17
Finding B




                 Finding B
                 Appropriate Contract Oversight Not Performed and
                 Adequate Resources Not Provided
                 The ASA(FM&C) COR did not perform appropriate contract oversight and surveillance
                 on the AGF audit readiness contract. Specifically, the COR did not:

                                •	 monitor the contractor during site visits,

                                •	 adequately document contractor performance or report the contractor’s
                                    performance in accordance with the COR designation memorandum, or

                                •	 complete thorough reviews of contractor invoices.

                 This occurred because the four primary CEHNC COs did not ensure that the COR had
                 the necessary resources to perform adequate oversight.                                      Specifically, CEHNC COs
                 did not:

                                •	 develop an adequate quality assurance surveillance plan (QASP) in
                                    coordination with ASA(FM&C) personnel;

                                •	 properly appoint the COR; or

                                •	 adequately monitor the COR’s performance and workload, which included
                                    monitoring 6  contracts,19 valued at $184.8 million, with approximately
                                    300 contractor personnel.

                 As a result, ASA(FM&C) personnel had reduced assurance that the $90.1 million
                 spent on AGF audit readiness services represented the actual quality level of
                 services and quantity of work performed.  



                 	19	
                        Of the six contracts that the COR was responsible for monitoring, CEHNC personnel awarded four contracts, including the
                        AGF audit readiness follow-on contract that was awarded on April 9, 2013, and Army Contracting Command personnel
                        awarded two contracts.




18 │ DODIG-2014-056
                                                                                                                                            Finding B



Guidance for Contract Oversight
Federal          Acquisition          Regulation         (FAR)        Subpart        1.602,       “Contracting           Officers,”
March  2005, states that COs are authorized to enter into contracts on behalf of
the Government and are responsible for verifying contractor performance and
compliance with the contract terms.                               In general, the CO performs or delegates
oversight and verifies an effective process for measuring and reporting contractor
performance.               Specifically, the CO is responsible for verifying that a QASP is
prepared in conjunction with the statement of work and specifies all work
requiring surveillance and the method of surveillance in accordance with
FAR Subpart  46.4, “Government Contract Quality Assurance.”  The COR should
use the QASP to verify that the Government receives and pays for an acceptable
level of services specified in the contract.  Further, Army Regulation  70-13,
“Management                 and       Oversight          of      Service         Acquisitions,”           July      30,       2010,
states         that       the      level       of      surveillance          should         be      commensurate               with
the dollar value, risk,20 complexity, and criticality of the acquisition.                                                  The CO
is authorized to designate a COR to provide technical direction, clarification, and
guidance on the contract specifications.  However, before awarding a service
contract in support of Army requirements, the CO should formally designate a
properly trained COR.                    The requiring activity21 is responsible for nominating the
COR.         Also, the Deputy Secretary of Defense Memorandum, “Monitoring Contract
Performance in Contracts for Services,” August  22,  2008, states that upon
nomination, the requiring activity should affirm that the COR will receive the
necessary resources (such as time, equipment, and opportunity) to perform
designated responsibilities.


Contract Oversight Was Inadequate
The COR did not perform adequate contract oversight and surveillance on the AGF
audit readiness contract. Specifically, the COR did not:

               •	 perform onsite monitoring of the contractor,  

               •	 adequately document contractor performance and report the contractor’s
                   performance in accordance with the COR designation memorandum, or

               •	 complete thorough reviews of contractor invoices.


	20	
       According to GAO-09-362T, time-and-material contracts, such as the AGF audit readiness contract, are high risk to
       the Government.
	21	
       The requiring activity is the organization that actually receives the benefit of the goods or services provided by the service
       contract. In most cases, the requiring activity is the organization that both pays for and receives the benefit of the contract
       service being purchased. For the AGF audit readiness contract, ASA(FM&C) is the requiring activity.



                                                                                                                                     DODIG-2014-056 │ 19
Finding B



                 Although, the Director of the Accountability and Audit Readiness Directorate
                 nominated the COR in May  2010, and the COR began to perform his responsibilities
                 from the start of the contract (September  28,  2010), the CEHNC CO did not
                 formally delegate each of these contract oversight and surveillance tasks to
                 the COR until January  18,  2012. In addition, the CEHNC CO performed the first COR
                 File Review in November 2012.


                 Site Inspections Not Performed
                 The COR did not observe and inspect the contractor’s performance during any
                 site visits. Although the COR did not attend any site visits, he stated that he relied
                 on Army employees who accompanied the contractors on site visits along with
                 trip reports for contractor surveillance. As of April  9,  2013, contractor personnel
                 performed 402  site visits to Army installations and activities.                                         On the site visits,
                 contractor personnel conducted discovery activities,                                22
                                                                                                          performed training, identified
                 corrective actions, and tested internal controls.  Of the 402  site visits, 236 of them
                 were to provide training to Army personnel on audit readiness or specific business
                 process training.                The Director, AGF Audit Readiness, Accountability and Audit
                 Readiness Directorate (Director, AGF Audit Readiness), ASA(FM&C) personnel were
                 not required to attend training site visits.                             However,            ASA(FM&C) personnel only
                 attended 28 of the remaining 166 site visits.                                    Table 4 identifies the 166  visits
                 completed, as of April  9, 2013, that did not include training and the number of times
                 ASA(FM&C) personnel accompanied contractor ersonnel on these visits.

                 Table 4. DoD Office of Inspector General Analysis of 166 Site Visits
                                                                                                              ASA(FM&C) Attended
                                                                    AGF Contractor
                                  FIP Focus                          Completed                       Number                       Percent
                      SBR*                                                   7                            1                           14
                      Military Equipment                                    45                            5                           11
                      and General Equipment
                      OM&S                                                  53                            7                           13
                      Real Property                                         37                            6                           16
                      Environmental Liabilities                             16                            3                           19
                      Military Pay                                           8                            6                           75
                               Total                                       166                            28                          17
                      *SBR includes the Budget Execution, Appropriations Received, Fund Balance With Treasury, and
                      Financial Reporting FIPs.




                 	22	
                        The purpose of discovery is to define and prioritize processes, assess risks, test controls, and identify weaknesses.



20 │ DODIG-2014-056
                                                                                                                                      Finding B



The COR was co-located in Arlington, Virginia, with up to 50 contractor personnel
who primarily provided ASA(FM&C) with audit readiness strategy support.
The Director, AGF Audit Readiness, stated there were Government personnel
present, either ASA(FM&C) personnel or local Internal Review staff, on each site
visit. However, the CEHNC CO did not formally designate Army personnel to assist
the COR.              CEHNC Quality Management Standard 18511.0-HNC, “Appointment
and Duties of Contracting Officer Representative,” August  15, 2011, states that
if necessary, and when determined to be in the Government’s best interests, the
CO may appoint a properly trained contracting officer’s technical representative
(COTR)23 in writing.                  The COR stated that he obtained performance feedback
from Army employees who assisted him with validating contractor performance.
However, he did not document the feedback.                                 The COR also stated that he relied
on weekly status reports from the contractor and weekly staff meetings with
ASA(FM&C) management personnel. The COR or properly appointed COTRs should
have accompanied contractor personnel onsite visits because of the heavy reliance
on contractor personnel.


Contractor Performance Not Documented
The COR did not effectively document contractor performance.                                          The COR did not
document any surveillance until December 2011, 15 months after the contract
was awarded. At that time, he began maintaining a Surveillance Sheet and a COR
Inspection Checklist and Data Report. However, the schedule listed only the three
specific tasks identified in the contract:

               •	 Task 1 – Audit Readiness Strategy Support,

               •	 Task 2 – Information Technical Infrastructure Development, and

               •	 Task 3 – Miscellaneous Reports/Requirements.

Those three tasks represented the 15 deliverables required by the AGF audit
readiness contract.                (See Appendix E for the deliverables associated with each
task.) However, the COR simply checked a box indicating that the COR performed
surveillance without documenting the dates or results, such as the specific tasks
that the contractor completed, whether the contractor was on schedule, or whether
the quality of the contractor’s work was acceptable.                                     Because the COR did not
provide enough detail in the reports, he did not effectively demonstrate that

	23	
       According to the CEHNC standard, a COTR is an individual who is appointed by the CO to assist with contract monitoring or
       administration. A COTR normally has experience in the technical area that is critical to the successful completion of
       the contract.




                                                                                                                               DODIG-2014-056 │ 21
Finding B



                 contractor performance was in accordance with the contract requirements and
                 was reasonable for the time and materials that the contractor charged.

                 In addition, the COR did not report contractor performance in accordance with
                 the COR designation memorandum.                              Specifically, the COR did not submit monthly
                 reports on contractor performance to the CO and complete annual performance
                 assessments. (See Appendix F, Topics 3, 5, 6, and 7 for more details.)


                 Limited Reviews of the Contractor’s Invoices
                 The COR performed limited reviews of the contractor’s invoices, which reduced
                 the assurance that the invoice amounts represented the actual level of contractor
                 performance. The COR’s designation memorandum and the QASP did not identify the
                 method that the COR should use to review invoices. The COR stated that the CENHC
                 CO instructed him to review the invoices for reasonableness. However, the COR did
                 not document the specific methodology that he used to review invoices. The Deputy
                 Secretary of Defense Memorandum, “Monitoring Contract Performance in Contracts for
                 Services,” August 22, 2008, states that CORs should verify that contractors comply with
                 all contract requirements and that overall performance is commensurate with the
                 level of payments made throughout the life of the contract.

                 The COR reviewed the labor and travel invoices that the contractor provided. Each
                 invoice included the billed amount by sub-Contract Line Item Number (CLIN),24 for
                 that invoice, and a running total of the cumulative amount billed. Each submitted
                 invoice also included spreadsheets that the contractor generated.

                 The contractor’s spreadsheets provided the following details to support labor and
                 travel invoices.

                                •	 Labor Invoices.               A list of all contractor and subcontractor employees
                                    showing: (1) employee name, (2) labor category, (3) hourly billing
                                    rate, (4)  day and number of hours worked that day, and (5) billing rate
                                    multiplied by the number of hours worked per day.

                                •	 Travel Invoices. A list of contractor employees with their travel dates
                                    and billable and nonbillable totals. The contractor also provided separate
                                    summary sheets, by subcontractor, for all subcontractor travel.  Those
                                    lists also included travel dates and billable and nonbillable totals.


                 	24	
                        CLINs are items or services to be acquired as separate contract line items.




22 │ DODIG-2014-056
                                                                                             Finding B



However, the COR could not provide evidence other than the contractor-generated
spreadsheets to support the labor and travel charges.        The COR did not obtain
items, such as timekeeping records, to verify the employees’ labor categories or
the actual travel vouchers. As a result, the COR had the ability to verify only the
sum total for each invoice with the subtotals provided in the contractor-generated
spreadsheets. Therefore, for labor invoices, the COR could not verify the accuracy
of the labor categories, the labor hours, or whether the employee listed was
actually working on the contract.      Similarly, without an actual travel voucher, the
COR could not verify any of the travel charges submitted. Because of the lack of
substantiating documentation, the COR could not verify that the $90.1  million that
the contractor billed for labor and travel costs were valid. Rather, the COR had to
rely on the contractor to submit and bill the proper amount as well as to identify any
errors since he did not have the supporting documentation.

The COR did not identify any discrepancies.  However, the contractor identified
billing errors.   For example, the contractor charged the wrong labor category
for 17  employees over a 15-month period, which the COR did not detect.  In
April  2012, the contractor identified the labor category error and refunded
approximately $228,000 through credits in the April, May, and June  2012 invoices.
If the contractor did not identify the error or refund the $228,000, the COR and
CO would not have known about the overbilling. The COR should not rely on the
contractor to verify the accuracy of the invoices.


Adequate Resources Not Provided
The four individuals who served as primary CEHNC COs during the life of the
contract did not ensure that the COR dequate resources to perform appropriate
oversight and surveillance. The CEHNC COs did not:

         •	 develop an adequate QASP,

         •	 properly appoint the COR, or

         •	 adequately monitor the COR performance and workload.

Using several COs for the AGF audit readiness contract led to a lack of continuity and
contributed to inconsistent recordkeeping and ineffective COR monitoring.




                                                                                      DODIG-2014-056 │ 23
Finding B



                 Quality Assurance Surveillance Plan Was Inadequate
                 The initial CEHNC CO awarded the AGF audit readiness contract without an
                 adequate QASP.       The QASP is the key element for contract monitoring and
                 surveillance.   The FAR Subpart 46.4, “Government Contract Quality Assurance,”
                 states that the QASP should specify all work requiring surveillance as well as the
                 method of surveillance. However, the QASP that the CEHNC CO approved did not
                 correspond to the tasks in the contract and provided vague and unclear
                 methods for surveillance.      For example, the QASP did not include the following
                 surveillance procedures:

                          •	 provide a schedule for periodic onsite inspections, floor checks, and
                             audits of contractor billings to verify that costs charged to the contract
                             were legitimate and reasonable;

                          •	 identify what would be checked during an inspection, how it would be
                             checked, and what type of sample would be used;

                          •	 describe the method that would be used for checking contract invoices
                             to verify that only those labor categories used for the performance of a
                             task or project were invoiced to the Government; or

                          •	 explain how the CO would verify that payments did not exceed the quality
                             and quantity of work completed.

                 Without measurable inspection and surveillance criteria, the COR could not
                 adequately determine whether the contractor performed work in accordance
                 with the contract requirements. The lack of oversight could ultimately lead to the
                 Army not meeting its audit readiness goals, or it could allow the Army to pay too
                 much for the services that the contractor provided. Based on the dollar value, risk,
                 complexity and criticality of the acquisition, the QASP should have included detailed
                 surveillance procedures to ensure that the Government received and paid for the
                 acceptable quality level of services.

                 On April  9,  2013, the AGF audit readiness contract expired because contract costs
                 reached the contract ceiling.      CEHNC personnel awarded an AGF audit readiness
                 follow-on contract with an effective date of April  9,  2013.     CEHNC personnel, in
                 coordination with ASA(FM&C), developed a QASP for the follow-on contract that
                 incorporated requirements from the FAR and DoD COR Handbook, March  22,  2012.  
                 However, the Chief of Contracting, CEHNC, should require the CEHNC CO implement
                 the procedures outlined within the QASP.




24 │ DODIG-2014-056
                                                                                                                                     Finding B



Appointment and Training Weaknesses Identified
The CEHNC CO did not properly appoint the COR. Army Regulation  70‑13 states
that before work can begin on the contract, the CO must verify that the COR received
the necessary appointment, training, and orientation needed to perform the
delegated duties.              The CO is also responsible for verifying that the COR receives
the COR designation memorandum, a complete copy of the contract, the contractor’s
quality control plan, the QASP, and other pertinent documents.

On May 24, 2010, the Director of the Accountability and Audit Readiness
Directorate nominated a civilian employee from ASA(FM&C) as the COR for the
AGF audit readiness contract.                        The COR began performing surveillance, which
primarily included approving invoices when the contract was awarded on
September 28,  2010. However, the CEHNC CO did not officially designate the COR
until January 18,  2012, when the CEHNC CO assigned in late 2011 could not locate
the original designation memorandum that should have been issued before the start
of the contract.             Although the COR was identified and briefed on his duties and
responsibilities during the post award conference on September 29,  2010, the Defense
FAR Supplement 201.602-2, “Responsibilities,” revised September 20, 2011, requires
designating a COR, in writing.

As of August 24, 2010, the COR did not complete the required USACE COR training,
so the CEHNC CO provided a 90-day training waiver.25 The training waiver stated
that the contract was to be a firm-fixed-price contract, which the COR had
prior         experience         monitoring.          The      contract’s        1-month         base       period       was
firm-fixed-price.            However, the funded CLINs covering the subsequent two option
periods included time and material. The COR did not have experience monitoring
time-and-material contracts. Although the COR met the basic training requirements
within the 90-day waiver period, he did not receive specific training for monitoring
time-and-material contracts. Based on the COR File Review completed in
November 2012, the CEHNC CO recommended that the COR take additional training
which the COR completed on August 26, 2013, 9 months after the recommendation.


Performance Not Routinely Reviewed
The CEHNC CO did not review the COR’s performance until the third year of the
AGF audit readiness contact. Army FAR Supplement 5101.602-2, “Responsibilities,”
May 22, 2007, states that the COs must validate the COR’s records every 12 months.

	25	
       The waiver allows the CO to appoint a COR who does not possess the required training with the understanding that the
       appointed COR is to complete all required training within 90 days of appointment.




                                                                                                                              DODIG-2014-056 │ 25
Finding B



                 The CEHNC CO performed a COR File Review on
                                                                                                   The
                 November 7 and 8,  2012. This was the first review
                                                                                               CEHNC CO
                 that the CEHNC CO performed since the start of                          performed a COR File
                 the contract in September  2010. The CEHNC CO                          Review on November 7
                 identified       numerous        weaknesses        in    the         and 8, 2012. This was the
                                                                                     first review that the CEHNC
                 performance of the COR. Specifically, the CEHNC                        CO performed since the
                 CO completed a COR File Review Checklist, which                        start of the contract in
                 identified 11  weaknesses in the 24 areas reviewed.                       September 2010.
                 On December  4,  2012, the CEHNC CO issued a
                 memorandum that documented the required corrective
                 actions to be completed. For a summary of the results and the required corrective
                 actions, see Appendix F. Figure 2 shows a timeline of the significant events for the
                 AGF audit readiness contract, highlighting when the first COR file review took place.

                 Figure 2. Significant Events for AGF Audit Readiness Contract
                           May 2010         COR Nominated
                         August 2010    2   AGF Audit Readiness COR Obtains Training Waiver From CO
                                        0
                      September 2010        AGF Audit Readiness Contract Awarded
                                        1
                        October 2010    0   COR Completes Required Training


                        January 2011        COR Approved First Contractor Invoice on AGF Audit Readiness
                                        2
                                        0
                                        1
                                        1

                        January 2012        CO Officially Designated AGF Audit Readiness COR
                                        2
                                        0
                                        1
                      November 2012     2   CO Performed First COR File Review
                      December 2012         CO Issued Corrective Actions Based on the COR File Review


                                        2   AGF Audit Readiness Contract Concluded
                           April 2013   0   AGF Audit Readiness Follow-on Contract Issued
                                        1
                                        3

                        January 2014        AGF Audit Readiness Follow-on Contract Concludes




26 │ DODIG-2014-056
                                                                                                     Finding B



Since completion of the first COR File Review, the CEHNC CO initiated several
corrective actions identified in her December 4, 2012, memorandum. We commend
the CEHNC CO for taking some corrective actions. However, because the previous
CEHNC COs did not review the COR’s performance in a timely manner, the COR
performed inadequate surveillance for more than 2 years. The Chief of Contracting,
CEHNC, should require the CEHNC CO and the COR to complete corrective actions
based on the COR File Review within 6 months of the date of this audit report to verify
that the CO and the COR followed CEHNC policies and procedures.

In addition, the Chief of Contracting, CEHNC, should direct the CEHNC CO to require
the COR to obtain the substantiating documents needed to determine the accuracy
of labor and travel charges on invoices submitted by the contractor since
the   beginning   of   the    AGF   audit     readiness   contract     in   September     2010.
Further, the CEHNC CO should require the COR to routinely obtain and
review    substantiating     documents   in    support    of   labor    and   travel   invoices
before approving them.

In addition, the Director of the Accountability and Audit Readiness Directorate
did not adequately assess the COR’s performance of his delegated duties.  The
Deputy Secretary of Defense Memorandum, “Monitoring Contract Performance
in Contracts for Services, August 22, 2008,” states that the COR management
should include the performance of the COR responsibilities as a part of the COR’s
performance standards. The COR’s supervisors are encouraged to request input on
performance of COR duties from the CO. The Director, AGF Audit Readiness, stated
that the COR’s duties were included in his performance standards.                      However,
the COR’s supervisor did not obtain feedback from the CEHNC CO for the COR’s
performance assessment to verify that the COR was performing his delegated
duties.   ASA(FM&C) should require the Director of the Accountability and Audit
Readiness Directorate to solicit and use input received from the CO and assess the
performance of COR based on the input.


Workload Was Excessive
The CEHNC CO did not adequately review the COR’s performance and, consequently,
did not identify that the COR’s excessive workload impeded him from thoroughly
completing his responsibilities until the third year of the contract. After completing
the COR File Review, the CEHNC CO was concerned that the COR could not
adequately perform all of his COR responsibilities because of the size and
complexity of the AGF audit readiness contract and his additional assigned duties.




                                                                                              DODIG-2014-056 │ 27
Finding B



                 The nomination package stated that, the COR was responsible for the AGF audit
                 readiness contract and the contract might require 5 percent of the nominee’s time.
                 The AGF audit readiness contract, valued at $90.1  million, included 15 deliverables,
                 comprised of 65 detailed tasks that more than 200 contractor personnel performed
                 at more than 200 sites. ASA(FM&C) personnel relied heavily on contractor support
                 to perform AGF audit readiness efforts. The extent and significance of this reliance
                 warranted an increased level of contractor surveillance to verify that contractors
                 were providing quality services in a timely manner. In addition to the
                 AGF audit readiness contract, valued at about $90.1 million, the COR was
                 designated as the COR on five other contracts, which included the AWCF audit
                 readiness contract and the AGF audit readiness follow-on contract.                  In total,
                 the COR monitored 6 contracts, valued at $184.8 million, with approximately
                 300  contractor personnel. The COR also performed his duties as the senior building
                 representative, which included preparing office work orders, ordering supplies,
                 supervising building maintenance, and preparing Army budget reports.

                 ASA(FM&C) personnel did not place the same level of emphasis on contractor
                 oversight and surveillance as they did with funding efforts for achieving audit
                 readiness.     The CO’s December 4, 2012, memorandum identified the need for
                 an alternate COR or COTR.            Although we did not review CEHNC’s oversight of
                 the AWCF audit readiness contract, the oversight problems identified on the
                 AGF audit readiness contract could be occurring on the AWCF audit readiness
                 contract because the AGF and AWCF audit readiness contracts had the same COR. 
                 The Chief of Contracting, CEHNC, should direct the CO to perform an analysis of the
                 COR’s workload to determine the level of additional support needed for adequate
                 oversight     and   request   that    ASA(FM&C)    nominate     additional   personnel     to
                 perform oversight on the AGF and AWCF audit readiness contracts.                 Additionally,
                 ASA(FM&C) should adhere to the findings and recommendations from the Chief of
                 Contracting, CEHNC, regarding the need for additional oversight personnel.


                 Multiple Contracting Officers Contributed to Problems
                 The   Chief    of   Contracting,     CEHNC,   assigned   nine   COs   to   the   AGF    audit
                 readiness contract from contract award through April 9, 2013.  The Chief of
                 Contracting, CEHNC, designated four primary COs to administer the AGF audit
                 readiness contract and assigned five other COs to sign modifications on the contract
                 in the absence of the primary COs.            Two of the primary COs were terminated
                 during the life of the contract, including the initial CO who signed the COR training
                 waiver, approved the QASP, and was responsible for designating the COR in




28 │ DODIG-2014-056
                                                                                                Finding B



writing before contract award. Using numerous COs led to a lack of continuity and
contributed to the inconsistent record keeping and poor COR monitoring.


Conclusion
Because the COR provided inadequate contract oversight and surveillance,
the Army had reduced assurance that the $90.1 million spent on AGF audit
readiness   services   represented    the   actual   quality   level   of   services   and
quantity of work that was performed.        The Army depends heavily on contractor
support to carry out its audit readiness efforts.  The critical reliance on
contractor support to meet audit readiness goals and the large expenditures
involved make contract surveillance all the more vital to verify that contractors
are providing quality services in a timely manner.


Recommendations, Management Comments, and
Our Response
Recommendation B.1
We recommend that the Chief of Contracting, U.S. Army Corps of Engineers – Huntsville
Engineering and Support Center:

        a.	 Require the contracting officer to implement the procedures established
            within the quality assurance surveillance plan.

Chief of Contracting, U.S. Army Corps of Engineers – Huntsville Engineering
and Support Center Comments
The Chief of Contracting, CEHNC, agreed and stated that the CO implemented
the requirements of the QASP for the AGF follow-on contract and the AWCF
contract.   CEHNC personnel transferred those contracts to the Army Contracting
Command – Aberdeen Proving Ground.  The Chief of Contracting stated that the
QASP included in the original AGF contract was issued before implementing the
DoD COR Handbook, dated March 22, 2012.  However, in the COR Annual File
Review, dated December  4, 2012, the CO cited multiple corrective actions related
to contract surveillance. He further stated that the COR made required corrections
and continued compliance through the end of the contract performance period,
which was April 9, 2013.




                                                                                         DODIG-2014-056 │ 29
Finding B



                 Our Response
                 The response from the Chief of Contracting, CEHNC, addressed all of the specifics
                 of the recommendation, and no additional comments are required.

                         b.	 Require   the    contracting   officer   and   the   contracting   officer’s
                            representative to complete corrective actions based on the Contracting
                            Officer’s Representative File Review within 6  months of the date of
                            this report to verify that the contracting officer and the contracting
                            officer’s representative follow U.S. Army Corps of Engineers – Huntsville
                            Engineering and Support Center policies and procedures.

                 Chief of Contracting, U.S. Army Corps of Engineers - Huntsville Engineering
                 and Support Center Comments
                 The Chief of Contracting, CEHNC, agreed and stated that personnel completed
                 all corrective actions as a result of the COR Annual File Review, dated
                 November 7 and 8, 2012. He outlined specific actions taken and completion dates (for
                 example, the COR submitting monthly surveillance reports and performance reports
                 starting in January 2013).


                 Our Response
                 The response from the Chief of Contracting, CEHNC, addressed all of the specifics
                 of the recommendation, and no additional comments are required.

                         c.	 Direct the contracting officer to require the contracting officer’s
                            representative     to obtain the substantiating documents needed to
                            determine the accuracy of all labor and travel charges on invoices
                            submitted since September 2010 by the contractor for services
                            rendered on the Army General Fund audit readiness contract.

                 Chief of Contracting, U.S. Army Corps of Engineers – Huntsville Engineering
                 and Support Center Comments
                 The Chief of Contracting, CEHNC, agreed and stated that in April 2013, the
                 CO directed the COR to obtain and provide substantiating documentation in
                 accordance with Federal Acquisition Regulation (FAR) Part 52, “Solicitation
                 Provisions and Contract Clauses,” Subpart 52.232-7, “Payments under Time-and-
                 Materials and Labor-Hour Contracts,” for all submitted and subsequent invoices.
                 CEHNC’s Contracting and Program Management team conducted an independent
                 review of these invoices based on substantiating documentation in January 2014,




30 │ DODIG-2014-056
                                                                                              Finding B



before the contract closeout. In addition, he stated in accordance to FAR 52.232-7,
the following can substantiate contractor invoices:

        i.	 Individual daily job timekeeping records,

        ii.	 Records that verify the employees meet the qualifications for the labor
           categories specified in the contract, or

        iii.	Other substantiation approved by the CO.

The Chief of Contracting stated that the CEHNC CO used information consistent
with items ii and iii to substantiate all invoices.        He also stated that CEHNC
acknowledged that the auditors considered individual daily job timekeeping
records to be the most appropriate form of substantiating documentation.           As a
result, the CENHC CO will obtain those records and conduct a review of all labor
and travel charges on invoices submitted since September 2010.           The estimated
completion date is July 2014.


Our Response
The response from the Chief of Contracting, CEHNC, addressed all of the specifics of the
recommendation, and no additional comments are required.

        d.	 Direct the contracting officer to require the contracting officer’s
           representative       to   routinely   obtain   and   review   substantiating
           documents in support of all labor and travel invoices before
           approving them.

Chief of Contracting, U.S. Army Corps of Engineers – Huntsville Engineering
and Support Center Comments
The Chief of Contracting, CEHNC, agreed and stated that, in April 2013, the CO
directed the COR to obtain and review substantiating documentation in accordance
with FAR 52.232-7 for all contractor invoices.


Our Response
The response from the Chief of Contracting, CEHNC, addressed all of the specifics
of the recommendation, and no additional comments are required.

        e.	 Direct the contracting officer to perform an analysis of the workload
           for the contracting officer’s representative to determine the level of
           additional support needed for adequate oversight and request that




                                                                                       DODIG-2014-056 │ 31
Finding B



                            the Assistant Secretary of the Army (Financial Management and
                            Comptroller) nominate additional personnel to perform oversight
                            of the Army General Fund and Army Working Capital Fund audit
                            readiness contracts, if determined necessary.

                 Chief of Contracting, U.S. Army Corps of Engineers - Huntsville Engineering
                 and Support Center Comments
                 The Chief of Contracting, CEHNC, agreed and stated that the CO conducted a
                 workload analysis during the COR file review in December 2012 and recommended
                 that either an alternate COR or a COTR be appointed to assist the primary
                 COR    with   his   oversight   responsibilities.    ASA(FM&C)    appointed    a   COTR
                 on the original AGF contract in January 2013 and on the AGF follow-on
                 contract in April 2013. The Chief of Contracting stated that on transfer of contracts
                 to Army Contracting Command – Aberdeen Proving Ground in April 2013,
                 CEHNC informed the new contracting office of the potential need for additional
                 COTRs. Additionally, he explained that CEHNC focused more heavily on proper COR
                 management across the organization and implemented the Army’s Contracting
                 Officer’s Representative Management System.         Furthermore, all COR nominations,
                 appointments, and records are processed, tracked, and managed within the
                 Virtual Contracting Enterprise Contracting Officer Representative Module.  The
                 COR nomination provides the CO with the necessary information to determine
                 if the nominee is qualified to serve as a COR for a specific contract and
                 requires the nominee’s supervisor to support the nomination.          He further stated
                 the Contracting Officer’s Representative Management System allows a prospective
                 COR to create a profile and process a nomination package for one or multiple
                 contracts or orders as well as provide contracting personnel a Web-based portal
                 for all relevant COR actions, such as training certificates, monthly reports, termination
                 letters, and annual reviews.


                 Our Response
                 The response from the Chief of Contracting, CEHNC, addressed all of the specifics
                 of the recommendation, and no additional comments are required.




32 │ DODIG-2014-056
                                                                                             Finding B



Recommendation B.2
We recommend that the Assistant Secretary of the Army (Financial Management
and Comptroller):

        a.	 Require the supervisor for the contracting officer’s representative to
           solicit and use input received from the contracting officer and assess
           the performance of the contracting officer’s representative based
           on the input.

        b.	 Adhere to the findings and recommendations from the Chief
            of Contracting, U.S. Army Corps of Engineers–Huntsville
            Engineering and Support Center, regarding the need for additional
            oversight personnel.

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Director, Accountability and Audit Readiness, on behalf of the ASA(FM&C),
agreed with our recommendation and stated that all existing contract vehicles
were transferred to Army Contracting Command–Aberdeen Proving Ground in
April 2013, and the ASA(FM&C) would comply with the contracting regulations
set forth by the Army Contracting Command.            The Director also stated that the
ASA(FM&C) executed plans for additional personnel to receive COTR training and
appointment to assist the COR in oversight efforts.


Our Response
The response from the Director, Accountability and Audit Readiness, partially
addressed the recommendation. His response on Recommendation B.2.b addressed
all of the specifics of the recommendation, and we require no additional comments.
However, the Director’s response on Recommendation B.2.a partially addressed
the recommendation because he did not specifically address the need for the
COR’s supervisor to solicit input from the CO when addressing the performance
of the COR.     We request that the ASA(FM&C) provide additional comments on
Recommendation B.2.a.




                                                                                      DODIG-2014-056 │ 33
Finding C




                 Finding C
                 Enhanced Oversight Required for Financial
                 Administration of the Contract
                 CEHNC personnel used inadvisable accounting practices in performing the
                 financial administration of the AGF audit readiness contract.                                        Specifically, of the
                 $90.1  million obligated on the AGF audit readiness contract, CEHNC Center Support
                 Branch, personnel:

                                •	 obligated about $66  million of Army military construction funds
                                    instead of the Operation and Maintenance (O&M) funds provided by
                                    ASA(FM&C) and the Army National Guard. This occurred because USACE
                                    did not definitize its reimbursable orders policy before contract issuance.
                                    Subsequently, CEHNC personnel did not follow the USACE reimbursable
                                    order policy and CEHNC work instruction regarding the financing
                                    of contract costs.             CEHNC personnel inappropriately applied standard
                                    business practices for financing construction-type activities to the
                                    AGF audit readiness contract.

                                •	 could not match all contract obligations to the obligations recorded in
                                    CEFMS. This occurred because CEHNC personnel did not record obligations
                                    in the accounting records properly.                       In addition, CEHNC did not have
                                    procedures in place to ensure that obligations recorded in CEFMS matched
                                    the supporting documentation in the contract.

                 As a result, CEHNC personnel processed $21.5  million26 in contractor payments
                 citing different obligating accounts than those cited in the contract,27 leading to an
                 increased risk of overobligating Army military construction funds.                                           Although the
                 use of the Intra‑Governmental Payment and Collection System                                          28
                                                                                                                           helped prevent
                 overobligations in the USACE financing account, the risk remained.




                 	26	
                        The $21.5 million constitutes a portion of the $66 million of incorrectly obligated military construction funds.
                 	27	
                        Obligating accounts are appropriations, funds, and authority used to create obligations that will require payment during
                        the same or some future period.
                 	28	
                        The Intra-Governmental Payment and Collection System facilitates intra-governmental Federal e-commerce by transferring
                        funds, with related descriptive data, between Federal agencies. For the AGF contract, fund transfers occurred on a monthly
                        basis, usually at the start of each month.




34 │ DODIG-2014-056
                                                                                                                                Finding C



Incorrect Obligation of Funds
Of the $90.1 million obligated against the AGF audit readiness contract
CEHNC          Center        Support        Branch         personnel          incorrectly        obligated          about
$66      million      using      funds       from      the     Army       military      construction         financing
account.         For 10 of the 12 CLINs                   29
                                                               in the AGF audit readiness contract,
CEHNC did not use the funding (O&M) appropriations that the Army and
Army National Guard provided.

USACE, “Reimbursable Work Financing Appropriation Policy,” December 2, 2010, states:

             • the fiscal limitations of the source appropriation (funding appropriation
                to be cited in the contract) are adhered to regardless of the carrier
                appropriation used.

             • the      carrier      (financing)        account        will     not     be     recorded        as     the
                source appropriation for a Federal customer, as it can lead to an
                Antideficiency Act violation.

             • reimbursable orders citing a military appropriation shall be financed
                (carried) with the same military appropriation cited by the requesting
                organization when that appropriation is available as a carrier.

             • the closest (similar purpose) military appropriation must finance
                the work if the performing organization does not have authority to use
                the source appropriation as a carrier.

The      Army       and      Army       National       Guard       provided       funding        through       Military
Interdepartmental             Purchase         Requests        that      CEHNC         accepted        under        their
automatic reimbursable authority.                     In accordance with the USACE reimbursable
orders policy, CEHNC used financing accounts to provide the funds needed to
make the initial payments on contractor invoices.                               Subsequently, the Army and
Army National Guard reimbursed USACE through the Intra-Governmental Payment
and Collection System.

The funding appropriations that ASA(FM&C) and the Army National Guard provided
to CEHNC cited either the O&M, Army, or O&M, Army National Guard, appropriations
for each of the 12 CLINs. However, on five CLINs (0001, 0002, 1001, 1004, and 2004)
established by CEHNC, the financing accounts cited Army military construction

29
     There were 21 CLINs on the AGF audit readiness contract through modification P00020. However, nine of them were not
     used. The nine unused CLINs were 1002, 1003, 1005, 2002, 2003, 2005, 3002, 3003, and 3005.




                                                                                                              Report No. DoDIG-2014-056 │ 35
Finding C



                 financing accounts.  On five other CLINs (2001, 2006, 2007, 3001, and 3004), CEHNC
                 cited a combination of O&M and Army military construction financing accounts.  
                 CEHNC personnel cited O&M financing accounts on CLINs 1006 and 1007.30 Table  5
                 shows the funding appropriations and financing accounts for the 12 CLINs.

                 Table 5. Funding Appropriations and Financing Accounts by CLIN
                                                                                                                            Financing
                                                                                        Funding Appropriation
                           CLIN         Contract Period1         Effective Date                                              Account
                                                                                         20202            20652           2020       20502
                      0001             Base Period              9/28/2010                   X                                           X
                      0002             Base Period              9/28/2010                   X                                           X
                      1001             Option Period 1          12/10/2010                  X                                           X
                      1004             Option Period 1          12/10/2010                  X                                           X
                      1006             Option Period 1          8/29/2011                                    X              X
                      1007             Option Period 1          8/29/2011                                    X              X
                      2001             Option Period 2          9/28/2011                   X                               X           X
                      2004             Option Period 2          9/28/2011                   X                                           X
                      2006             Option Period 2          9/28/2011                                    X              X           X
                      2007             Option Period 2          9/28/2011                                    X              X           X
                      3001             Option Period 3          9/28/2012                   X                               X           X
                      3004             Option Period 3          9/28/2012                   X                               X           X
                      1
                       See Appendix E for a description of the base period and the three option periods on the AGF
                        audit readiness contract.
                      2
                       Account codes 2020 and 2065 are the O&M appropriations used by the Army and the Army
                        National Guard, respectively. Account code 2050 is the Army military construction appropriation.

                 For example, on CLIN 2001, CEHNC obligated about $6.8  million in the account
                 code  2020 (O&M, Army) and about $32.6  million in account code  2050
                 (Army military construction) financing accounts.  Of the approximately
                 $90.1  million obligated against the contract, CEHNC personnel obligated about
                 $66  million in Army military construction financing account funds and about
                 $24.1  million in O&M, Army, financing account funds against the AGF
                 audit readiness contract.     The cited financing accounts should have been
                 exclusively tied to the O&M funding appropriations that ASA(FM&C) and the
                 Army National Guard provided.




                 	30	
                          For CLINs 1006 and 1007, CEHNC cited account code 2020 (O&M, Army) financing account funds, whereas the funding
                          documents cited account code 2065 (O&M, Army National Guard) appropriated funds. Account codes 2020 and 2065 are
                          both O&M-type funds, which for the purposes of this analysis, constitute the same class of funding appropriations.




36 │ DODIG-2014-056
                                                                                                 Finding C



Reimbursable Order Policy Not Followed Once Issued
CEHNC personnel initially used incorrect financing accounts because USACE did
not definitize its reimbursable orders policy before issuing the AGF audit readiness
contract.     USACE issued “Reimbursable Work Financing Appropriation Policy” on
December  2, 2010, about 2  months after CEHNC personnel awarded the AGF audit
readiness contract and funded CLINs 0001 and 0002.

However, CEHNC personnel continued to use the incorrect financing accounts
after USACE issued its policy on reimbursable orders.  After December 2010,
CEHNC funded 10 additional CLINs on Option Periods  1, 2, and  3 of the AGF audit
readiness contract.       CEHNC personnel used O&M financing accounts for a portion
of 7 of the 10 CLINs and used Army military construction financing accounts on
8 of the 10 CLINs (see Table 5).

CEHNC issued Work Instruction CEHNC-WI-71-03, “Accepting and Returning Funds,”
effective September  2, 2011. In April 2012, USACE began using account code  2020
(O&M, Army) financing accounts because of the change in the reimbursable orders
policy.     The Work Instruction serves as the local guide for how CEHNC accepts
reimbursable work. The Work Instruction states:

            •	 finance all 1-year Military (DoD) funded orders in O&M, Army (account
              code)  2020, with the exception of (account code)  2080 and O&M, Army
              (account code) 2020 construction.

            •	 finance   all   multi-year   Military   (DoD)   funded   orders   and   O&M,
              Army 2020 construction in (account code) 2050.

USACE issued two CLINs (3001 and  3004) after April 2012.                In both instances,
CEHNC personnel used Army military construction financing account funds for a
portion of both CLINs. CEHNC personnel did not provide an adequate explanation
for why it did not follow USACE policy and the CEHNC Work Instruction when
using Army military construction funding instead of O&M funding, but the Director
for Resource Management, CEHNC, acknowledged that the policy was not followed
for this contract.       The Chief of Contracting, CEHNC, should establish controls to
verify that COs comply with the USACE reimbursable orders policy and Work
Instruction CEHNC‑WI‑71‑03.  In addition, the Chief of Contracting, CEHNC,
should correct the financing appropriations for the 10  CLINs, so they match
the funding appropriations that ASA(FM&C) and the Army National Guard provided.




                                                                                          DODIG-2014-056 │ 37
Finding C



                  Standard Business Practices Inappropriately Applied
                  CEHNC personnel inappropriately applied standard business practices for financing
                  construction type activities to the AGF audit readiness contract.                                           CEHNC typically
                  issued medical facility, range and training, electronic security system, utility
                  monitoring and control system, environmental, and munitions contracts.  Based
                  on the types of contracts typically issued by CEHNC personnel, the AGF audit
                  readiness contract was outside their area of expertise. CEHNC personnel assigned
                  account code  2050 (Army military construction) financing accounts because
                  they routinely followed that practice for most of the CEHNC workload.


                  Mismatched Obligations on the Audit
                  Readiness Contract
                  The CO failed to check the funding document against the contract document and
                  the CEFMS obligation before signing the contract. In addition, the CO did not verify
                  that the lines of accounting in the procurement system were accurate.                                                      CEHNC
                  could reconcile the $90.1  million total cost of financing accounts obligated on
                  the contract to the total amount obligated in CEFMS.                                            However, $21.5  million
                  in financing accounts obligated in the contract at the sub-CLIN31 level did not
                  match the financing accounts obligated in CEFMS at the sub-CLIN level.                                                    The CO
                  for the AGF audit readiness contract acknowledged that the contract documents
                  reflected the incorrect funding appropriations for sub-CLINs on  4 of the 12  CLINs
                  (1001, 1004, 2001, and 2004) and stated that CEFMS was correct.


                  Correct Obligations Not Recorded
                  Recording different appropriations or fiscal years in CEFMS than those in the
                  contract was contrary to DoD 7000.14-R, “DoD Financial Management Regulation”
                  (DoD FMR) guidance. DoD FMR, volume  3, chapter  8, states that amounts are to
                                                   be recorded as obligations when supported by documentary

                                  The                    evidence of the transaction.                      For contracts, documentary
                               contract                    evidence consists of information in contract documents
                           obligations did                   identifying obligating accounts to be used and amounts
                          not match those
                                                             to be charged against them. While the obligations on the
                         recorded in CEFMS
                           at the sub-CLIN                  AGF audit readiness contract matched the obligations
                                 level.                    recorded in CEFMS at the summary level, the contract
                                                        obligations did not match those recorded in CEFMS at the
                                                   sub-CLIN level. For seven sub-CLINs, AGF audit readiness contract

                  	31	
                         Sub-CLINs (or subline items) provide flexibility to identify elements within a contract line item for tracking performance or
                         simplifying administration.


38 │ DODIG-2014-056
                                                                                                          Finding C



documentation identified a FY  2010 Army military construction financing account
while CEFMS showed either an FY  2011 or FY  2012 account. Table  6 identifies the
$21.5 million in discrepancies between the contract and CEFMS by sub-CLIN.

Table 6. Discrepancies in Sub-CLIN Obligations
                          Financing Account in     Financing Account in
         Sub-CLIN                                                           Amount (in millions)
                               Contract*                 CEFMS*
 100101                        21-0-2050                21-1-2050                   $3.0
 100105                        21-0-2050                21-1-2050                    1.4
 100106                        21-0-2050                21-1-2050                    1.1
 100401                        21-0-2050                21-1-2050                    1.0
 200101                        21-0-2050                21-1-2050                    3.0
 2001AA                        21-0-2050                21-2-2050                   11.0
 200401                        21-0-2050                21-1-2050                    1.0
 Total                                                                             $21.5
 * The difference between the two account columns is in the third number, which depicts the
   fiscal year of the identified funds for each sub-CLIN.


CEHNC personnel could not support the obligations recorded in CEFMS for the
seven sub-CLINs identified in Table 6. Because the contract documentation serves
as the source for obligating accounts, the only proper disbursements that can or
should be paid on these sub-CLINs were those citing the same accounts appearing on
the contract documentation.        Therefore, CEHNC personnel disbursed $21.5  million
in invoice payments to the contractor citing different obligating accounts than
those cited in the contract. When questioned about the discrepancies between the
contract and CEFMS, the CO described the misstatements as clerical errors and
stated that the CEFMS obligation amounts for each sub-CLIN were correct based
on the year the work was performed.


Internal Procedures Needed to Identify Incorrect Obligations
CEHNC personnel acknowledged that CEHNC did not have internal procedures in place
to verify that recorded obligations in CEFMS matched the source
documentation in the AGF audit readiness contract. The EHNC,
Director for Resource Management, also acknowledged
                                                                                 CEHNC
that the system used to input contract funding did not                           did not
interface with CEFMS.  Therefore, contract funding had                        have internal
to be manually entered into CEFMS, resulting in a higher                      procedures in
                                                                                  place.
risk of error. The CO failed to check the funding document




                                                                                                   DODIG-2014-056 │ 39
Finding C



                 against the contract document and the CEFMS obligation before signing the contract
                 and approving the obligation. In addition, the CO did not verify that the lines of
                 accounting in the procurement system were accurate.  Although CEHNC personnel
                 identified some procedures on how they would deal with clerical errors of this type,
                 none included any form of automated or third-party examinations of the two sets
                 of   data     to   verify   that   they   matched.   Procedures   centered   primarily   on
                 due diligence by the CO regarding contract obligations.


                 Necessary System Corrections Were Not Performed
                 On July  17, 2012, the CEHNC, Chief of the Special Projects Support Branch, stated
                 that her office was working with local administrators for the contract writing
                 system (Procurement Desktop Defense/Standard Procurement System) to determine
                 the best path for correcting the appropriation errors on the contract document.
                 The Chief also provided three options for CEHNC to correct the appropriation
                 errors on the contract, which are presented below in order of CEHNC’s preference.

                             •	 Option 1.	 CEHNC will attempt to execute an administrative modification
                               to see whether the contract writing system will allow a correction to
                               be made.

                             •	 Option 2.	 The contract writing system administrator will submit a
                               ticket to the helpdesk to see whether the system administrators can
                               make the changes.

                             •	 Option 3.	 CEHNC will document in the contract file a memorandum
                               for record from the CO indicating why CEHNC believes these errors
                               occurred, the steps taken to try to correct the errors, and a statement
                               affirming why the appropriations should have been the same as those
                               that appear in CEFMS.

                 On October  15, 2012, CEHNC personnel stated that they selected Option  3. CEHNC
                 personnel did not select the first two options because they were not easy to perform
                 and the system administrator recommended not making changes to the system
                 becuase of concerns about database corruption.            Consequently, the discrepancies
                 remained in the system as of March  2013, which undermined data reliability. The
                 CO prepared a memorandum for record dated November  8, 2012, explaining
                 how the errors occurred based on a CEHNC analysis of the contract funding, and
                 stated that the amounts recorded in CEFMS were correct.




40 │ DODIG-2014-056
                                                                                              Finding C



CEHNC personnel should have modified the contract because the analysis
validated the obligating accounts in CEFMS. The contract is the official obligating
document and should be correct. On April  3, 2013, we discussed our concerns with
CEHNC    personnel.     Afterwards,   CEHNC   personnel   issued     an   administrative
contract modification correcting the financing accounts cited in the contract for the
seven sub-CLINs that did not match the financing account in CEFMS. The contract
modification corrected the errors identified for the seven sub-CLINs. However, the
Chief of Contracting, CEHNC, should develop procedures to validate that the AGF audit
readiness contract obligations are correct and match those in CEFMS in accordance
with the DoD FMR.


Conclusion
CEHNC personnel used inadvisable accounting practices when they:

        •	 obligated $66  million in Army military construction financing account
           funds instead of O&M financing account funds that would have matched
           the O&M appropriated funds provided to CEHNC by ASA(FM&C) and the
           Army National Guard, and

        •	 could not match all obligations on the contract to the obligations recorded
           in CEFMS.

The exclusive use of O&M, Army, financing accounts, as applied to a limited extent
in the AGF audit readiness contract, would have been in accordance with the USACE
reimbursable orders policy and Work Instruction CEHNC‑WI‑71‑03.           Not following
this guidance increased adverse effects of misapplying contract financing and
increased the risk of CEHNC financing account funds being overobligated. Risks of
overobligating funds remain although the use of the Intra-Governmental Payment
and Collection system provides CEHNC with mitigating controls.  Additionally,
CEHNC personnel were responsible for verifying that contract-related obligations
were recorded in accordance with documentary evidence.             CEHNC’s inability to
match contract obligations in the AGF audit readiness contract documentation and
CEFMS at the sub-CLIN level resulted in the recording of incorrect obligations and the
processing of $21.5  million of contractor payments citing those incorrect obligations.
Although CEHNC personnel eventually issued an administrative contract modification
correcting the financing accounts in the contract, proper fund control mechanisms
should be established at CEHNC.




                                                                                       DODIG-2014-056 │ 41
Finding C



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation C
                 We recommend that the Chief of Contracting, U.S. Army Corps of Engineers – Huntsville
                 Engineering and Support Center:

                       1.	   Establish controls to verify that the contracting officers comply with
                             the reimbursable orders policy and Work Instruction CEHNC‑WI‑71‑03,
                             “Accepting and Returning Funds,” September 2, 2011.

                 Chief of Contracting, U.S. Army Corps of Engineers - Huntsville Engineering
                 and Support Center Comments
                 The Chief of Contracting, CEHNC, agreed and stated that a control process was
                 established to ensure a CEHNC supervisor or senior analyst reviews, validates, and
                 certifies every action against a financing appropriation.    Additionally, the process
                 is audited as part of the quality assurance program and is continually emphasized
                 in training and counseling. The Chief of Contracting also stated that CEHNC does not
                 process any action against the financing appropriation without a source funding
                 document from the customer to support the action. In addition, the source funds
                 are documented in CEFMS and therefore it is not possible to overobligate military
                 construction accounts. He also stated that no statutory violation occurred regarding
                 the obligation or recording of funds.


                 Our Response
                 The response from the Chief of Contracting, CEHNC, addressed all of the specifics
                 of the recommendation, and no additional comments are required.               Although
                 the Chief of Contracting stated that there is no possibility to overobligate the
                 military construction accounts, whenever control policies are not adhered to, the
                 risk of fund mismanagement increases.       While the risk of overobligating military
                 construction funding may be low, the risk remains when controls are not followed.

                       2.	   Correct the financing appropriations for the 10  contract line item
                             numbers, so they match the funding appropriations that the Assistant
                             Secretary of the Army (Financial Management and Comptroller) and
                             the Army National Guard provided.




42 │ DODIG-2014-056
                                                                                               Finding C



Chief of Contracting, U.S. Army Corps of Engineers - Huntsville Engineering
and Support Center Comments
The Chief of Contracting, CEHNC, agreed in concept with our recommendation. The
Chief of Contracting stated that CEFMS would not allow changes after personnel
selected    the   financing   appropriation   and   recorded   an   obligation   recorded
against the reimbursable order.       He also stated CEHNC personnel performed an
administrative modification on April 4, 2013, and included additional informational
sub-CLINs for correcting the funding appropriations.


Our Response
The response from the Chief of Contracting, CEHNC, addressed all of the specifics
of the recommendation, and no additional comments are required.

      3.	   Develop procedures to validate that the Army General Fund audit
            readiness contract obligations are correct and match those in the
            Corps of Engineers Financial Management System in accordance
            with DoD 7000.14-R, “DoD Financial Management Regulation.”

Chief of Contracting, U.S. Army Corps of Engineers - Huntsville Engineering
and Support Center Comments
The Chief of Contracting, CEHNC, agreed and stated that the CEHNC Contracting
Directorate would initiate an annual module dedicated to this subject within its
training curriculum and add a section to all branch desk guides.           The Chief of
Contracting stated that the Resource Management Directorate also conducted
training and reviewed procedures to identify possible discrepancies.  As an
additional control mechanism, CEHNC plans to maximize the use of reviews by
enior specialists before award, which includes validation of funding information.
In addition, validation of funding information will be added as a component of
monthly Program Compliance Reviews conducted by the Business Oversight Branch.


Our Response
The response from the Chief of Contracting, CEHNC, addressed all of the specifics
of the recommendation, and no additional comments are required.




                                                                                        DODIG-2014-056 │ 43
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from February 2012 through January  2014
                 in accordance with generally accepted government auditing standards.  Those
                 standards require that we plan and perform the audit to obtain sufficient, appropriate
                 evidence to provide a reasonable basis for our findings and conclusions based on
                 our audit objectives. We believe that the evidence obtained provides a reasonable
                 basis for our findings and conclusions based on our audit objectives.

                 We focused our review on ASA(FM&C)’s management of the AGF FIP and its
                 oversight of the AGF audit readiness contract.                                    We interviewed personnel from
                 USD(C), ASA(FM&C), the Army Contracting Command (ACC), CEHNC, and audit
                 readiness contractor personnel and performed site visits to Washington, D.C., and
                 Fort Irwin, California. We assessed the Army’s compliance with the FIAR Guidance
                 in developing 8 individual FIPs. We also reviewed the FIAR Directorate’s responses
                 to the AGF financial statement assertions. We reviewed the AGF FIPs for coverage
                 of the AGF financial statements, reviewed reported progress on the AGF FIP,
                 identified potential milestone risks, and assessed the impact of the FY 2012
                 National Defense Authorization Act, section 1003, and Public Law 112-239,
                 “The National Defense Authorization Act for Fiscal Year 2013,” section 1005,
                 “Audit Readiness of Department of Defense Statements of Budgetary Resources,”
                 January  2, 2013, on the audit readiness goal. ASA(FM&C) personnel developed an
                 AWCF FIP as of February 2013. However, our primary focus was on AGF FIPs.

                 We reviewed the AGF audit readiness contract awarded to IBM as delivery order
                 W912DY-10-F-0640                    against       General         Services        Administration            Federal         Supply
                 Schedule       32
                                     GS-23-F-8126H and decisions leading to its award by CEHNC, and
                 CEHNC’s financial administration of the contract.                                  We also examined the rationale
                 for why ACC did not issue the AGF and AWCF audit readiness contracts and we
                 reviewed the costs for CEHNC to award and administer them. We did not review
                 the financial administration or oversight for the AWCF audit readiness contract
                 awarded to PricewaterhouseCoopers as delivery order W912DY‑12‑F‑0088 against
                 General Services Administration Federal Supply Schedule GS‑23F‑0165N.



                 	32	
                        General Services Administration requires an industrial funding fee for use of its Federal Supply Schedules. This fee is set at
                        0.75 percent of the contract sales and is paid by the contractor, not the agency requesting or awarding the contract.




44 │ DODIG-2014-056
                                                                                           Appendixes



As part of our review of the AGF audit readiness contract, we determined whether:

        •	 Army audit readiness funds were accurately obligated  in CEFMS from
           the inception of the AGF audit readiness contract through June 2012,

        •	 CEHNC appropriately used military construction funds as a contract
           financing account,

        •	 contract costs were appropriately assigned to CLINs, and

        •	 key deliverables were performed by the contractor.

We identified the responsibilities of the AGF audit readiness contract CO and
COR concerning the oversight and monitoring of contractor performance and
assessed whether the CO and COR performed their duties in accordance with
the FAR, DoD and USACE policies, and Army Regulation 70-13.           We obtained the
documentation that ASA(FM&C) personnel prepared and used to monitor contractor
performance.     We reviewed 27  CEHNC invoice payments to the contractor, valued
at $37.8 million, as well as ASA(FM&C) and Army National Guard reimbursements
to CEHNC to verify that appropriations were properly applied.               We reviewed
contractor invoices submitted between January  2011 and June 2012 to identify any
potential problems regarding labor and travel charges for subcontractors.


Use of Computer-Processed Data
To perform this audit, we obtained data from CEFMS, the Electronic Document Access
system, and the Army Audit Data Repository.        We used CEFMS to determine the
amount and type of funding transferred from ASA(FM&C) and Army National
Guard to USACE as well as the information on the obligations and disbursements
made by CEHNC personnel related to the AGF audit readiness contract as of
November  13,  2012.  We compared the CEFMS data to copies of the military
interdepartmental purchase requests and to obligation data contained in the contract
documentation.     We verified a selection of CEFMS disbursement vouchers to the
actual disbursement amount received by the contractor.

We used the Electronic Document Access system to obtain contract documentation
and we verified that the contract information from the system matched to what
was maintained in the CEHNC contract file.        We also verified a portion of the
documents obtained from the Army Audit Data Repository to what ASA(FM&C)
personnel uploaded into the repository. When we compared the data from CEFMS
with the contract documents, we identified $21.5 million of differences in contract




                                                                                      DODIG-2014-056 │ 45
Appendixes



                 financing between CEFMS and the contract documents.       The Electronic Document
                 Access system and Army Audit Data Repository were both used for data storage
                 and did not manipulate or alter the data stored in the systems.      Based on this
                 information, we determined that the data were sufficiently reliable for the purposes
                 of this report.




46 │ DODIG-2014-056
                                                                                                Appendixes




Appendix B
Prior Coverage
During the last 5  years, the Government Accountability Office (GAO), the
Department of Defense Office of Inspector General (DoD IG), and the Army
Audit Agency issued 23 reports discussing financial improvement and audit
readiness.     Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov.       Unrestricted    DoD  IG     reports    can     be   accessed    at
http://www.dodig.mil/pubs/index.cfm.       Unrestricted Army reports can be accessed
from .mil and gao.gov domains over the Internet at https://www.aaa.army.mil/.


GAO
Report No. GAO-13-123, “DOD Financial Management:  Ineffective Risk Management
Could Impair Progress toward Audit-Ready Financial Statements,” August 2, 2013

Report No. GAO-13-28, “DOD Financial Management:           Actions Needed to Address
Deficiencies in Controls Over Army Active Duty Military Payroll,” December 12, 2012

Report No. GAO-12-406, “DOD Financial Management: The Army Faces Significant
Challenges in Achieving Audit Readiness for Its Military Pay,” March 22, 2012

Report No. GAO-12-444T, “Fiscal Year 2011 U.S. Government Financial Statements:
The Federal Government Faces Continuing Financial Management and Long-Term
Fiscal Challenges,” March 1, 2012

Report No. GAO-12-132, “DOD Financial Management:  Ongoing Challenges with
Reconciling Navy and Marine Corps Fund Balance with Treasury,” December 20, 2011

Report   No.   GAO-12-177T,    “DOD      Financial   Management:       Challenges   in   the
Implementation of Business Systems Could Impact Audit Readiness Efforts,”
October 27, 2011

Report No. GAO-11-830, “DOD Financial Management:           Marine Corps Statement of
Budgetary Resources Audit Results and Lessons Learned,” September 15, 2011

Report No. GAO-11-851, “DOD Financial Management:               Improvement Needed in
DOD Components’ Implementation of Audit Readiness Effort,” September 13, 2011




                                                                                           DODIG-2014-056 │ 47
Appendixes



                 Report No. GAO-11-864T, “DOD Financial Management: Numerous Challenges Must
                 Be Addressed to Achieve Auditability,” July 28, 2011

                 Report No. GAO-11-331T, “Contract Audits:          Role in Helping Ensure Effective
                 Oversight and Reducing Improper Payments,” February 1, 2011

                 Report No. GAO-11-53, “DOD Business Transformation:           Improved Management
                 Oversight of Business System Modernization Efforts Needed,” October 7, 2010


                 DoD IG
                 Report No. DODIG-2012-115, “Improved Oversight, but No Invoice Reviews and
                 Potential Antideficiency Act Violation May Have Occurred on the Kuwait Observer
                 Controller Team Task Orders,” August 2, 2012

                 Report No. DODIG-2012-111, “Enterprise Resource Planning Systems Schedule
                 Delays and Reengineering Weaknesses Increase Risks to DoD’s Auditability
                 Goals,” July 13, 2012

                 Report No. DODIG-2012-087, “Logistics Modernization Program System Procure-to-Pay
                 Process Did Not Correct Material Weaknesses,” May 29, 2012

                 Report No. DODIG-2012-066, “General Fund Enterprise Business System Did Not
                 Provide Required Financial Information,” March 26, 2012

                 Report No. DODIG-2012-027, “Deficiencies in Journal Vouchers That Affected
                 the FY  2009 Air Force General Fund Statement of Budgetary Resources,”
                 December 1, 2011

                 Report No. D-2011-072, “Previously Identified Deficiencies Not Corrected in the
                 General Fund Enterprise Business System Program,” June 15, 2011

                 Report No. D-2010-002, “Summary of DoD Office of the Inspector General Audits of
                 Financial Management,” October 19, 2009

                 Report No. D-2009-084, “Controls Over Army Working Capital Fund Real Property
                 Assets,” May 29, 2009

                 Report No. D-2009-069, “Independent Auditor’s Report on the Defense Information
                 Systems Agency General Fund FY 2007 Balance Sheet,” March 27, 2009




48 │ DODIG-2014-056
                                                                                         Appendixes



Report No. D-2009-068, “Independent Auditor’s Report on the Defense Information
Systems Agency Working Capital Fund FY 2007 Balance Sheet,” March 27, 2009

Report No. D-2009-002, “Attestation of the Department of the Navy’s Environmental
Disposal for Weapons Systems Audit Readiness Assertion,” October 10, 2008


Army Audit Agency
Report   No.   A-2011-0090-FFM,     “Audit   Readiness:   Statement   of    Budgetary
Resources-Appropriations Received,” April 1, 2011




                                                                                    DODIG-2014-056 │ 49
Appendixes




                 Appendix C
                 Cost-Effective Strategy Not Used to Award Audit
                 Readiness Contract
                 ASA(FM&C) personnel did not use a cost-effective strategy to award the AGF audit
                 readiness contract.  Specifically, ASA(FM&C) personnel used CEHNC rather than
                 ACC33 to award the AGF audit readiness contract. This occurred because ASA(FM&C)
                 and ACC could not agree on an acquisition strategy to award the contract by
                 September  30,  2010.                Additionally, ASA(FM&C) personnel allowed CEHNC to issue
                 the AWCF contract in March 2012, because it awarded the AGF audit readiness
                 contract and was familiar with the audit readiness scope of work.


                 Contracting Office Selection Process
                 ASA(FM&C) personnel initially selected ACC to award the AGF audit readiness
                 contract by the end of FY  2010. Annually, ACC personnel provide a letter to their
                 customers identifying the yearly cutoff times to award contracts. The letter detailed
                 the cutoff dates for various types of requirements. When customers sent requests
                 beyond those cutoff dates, the likelihood of a contract award depended upon its
                 anticipated dollar value and whether there was an existing contract already in
                 place. ACC personnel could not locate a copy of the FY  2010 cutoff letter that they
                 sent to their customers; however, the letter ACC issued on February 9, 2012,34
                 identified a 12- to 18‑month lead-time for service acquisitions over $50 million. An
                 ACC CO35 stated that although ACC received the AGF audit readiness requirement
                 in the beginning of August 2010, it accepted the requirement and began to work
                 the action.

                 During the award process, ASA(FM&C) and ACC personnel disagreed on how to
                 acquire audit readiness services.                       The Director, AGF Audit Readiness, stated that
                 the disagreement centered on whether the work should be performed by a small
                 or large business entity.                 The Director, AGF Audit Readiness, stated that in ACC’s
                 opinion,         a    small      business        could      accomplish         the     required        work;       however,

                 	33	
                        The National Capital Region Contracting Center was established in April 2010 to provide contracting and acquisition
                        support for the Army. In April 2011, the National Capital Region Contracting Center was renamed the ACC-National Capital
                        Region.  The ACC-National Capital Region closed on July 20, 2013, and its workload was distributed to other ACCs. For
                        consistency, we refer to this contracting organization as ACC throughout this report.
                 	34	
                        ACC personnel stated that FY 2012 cutoff dates would have been similar to FY 2010 cutoff dates.
                 	35	
                        The CO was not directly involved with the AGF audit readiness requirement at ACC and stated that many personnel
                        involved with the audit readiness requirement have departed ACC. The CO stated the AGF audit readiness requirement
                        was submitted to ACC in early August 2010.




50 │ DODIG-2014-056
                                                                                                                                      Appendixes



ASA(FM&C) disagreed and its opinion was that a large business with more
knowledge of and expertise in Government accounting and audit requirements
was needed to perform and manage the effort.  ASA(FM&C) personnel decided
to award the AGF audit readiness contract by September  30, 2010, and did not
wait to reach an agreement with ACC on how to acquire audit readiness services.
On August  17, 2010, ASA(FM&C) personnel withdrew the AGF audit readiness
requirement from ACC and transferred the requirement to CEHNC.


Army General Fund Audit Readiness Contract Awarded
The Deputy Assistant Secretary of the Army (Financial Operations) stated, USACE
headquarters personnel identified CEHNC as specialists in service contracts because
they performed the majority of service acquisitions within USACE.                                           CEHNC used
schedules from the General Services Administration, which reflects extensive
experience in using the contracting tool used for the AGF audit readiness contract.
In FY  2010, CEHNC personnel awarded 6,132 contracts, but only the AGF audit
readiness contract was related to financial audit readiness.  The Director, AGF
Audit Readiness, stated CEHNC was the only office available to award the AGF audit
readiness contract within the timeframe that ASA(FM&C) desired.36 Through FY 2012,
ASA(FM&C) paid $93,502 to CEHNC for award and administration fees.                                                  An ACC
contracting official stated that if ASA(FM&C) allowed ACC to award and administer
the contract, it would not have charged award and administration fees.


Army Working Capital Fund Audit Readiness Contract
Awarded
ASA(FM&C) personnel used CEHNC to award the AWCF audit readiness contract
and did not contact ACC before the contract award.                                        The Director, AGF Audit
Readiness, stated ASA(FM&C) went directly to CEHNC to award and administer the
AWCF contract because CEHNC already administered the AGF audit readiness
contract and was familiar with the audit readiness scope of work.  On
March  30, 2012, CEHNC personnel awarded the AWCF audit readiness contract
to PricewaterhouseCoopers.37                        Through FY  2012, ASA(FM&C) paid $258,470
to CEHNC for award and administration fees.                                 As with the AGF audit readiness
contract, an ACC contracting official stated that ACC would not have charged award
and administration fees.

	36	
       On April 30, 2012, ASA(FM&C) personnel requested blanket purchase agreements to cover potential contracts for an
       independent public accounting firm to assist the Army in performing audit readiness activities.
	37	
       On March 29, 2012, the CEHNC CO determined that PricewaterhouseCoopers represented the best value to the
       Government. As of March 2013, the base period of the AWCF contract, which covered the performance from April 2012
       through March 2013, was valued at $3.3 million. Option Period I was exercised on March 27, 2013, which was valued at
       $3.4 million, and ends on March 31, 2014. The contract is scheduled to conclude on March 31, 2015, at the end of Option
       Period II.


                                                                                                                                 DODIG-2014-056 │ 51
Appendixes



                 FY 2013 Fees
                 Through FY 2012, CEHNC charged $351,972 in award and administration fees
                 for the AGF and AWCF audit readiness contracts.                                      Since the start of FY 2013,
                 CEHNC charged ASA(FM&C) an additional $244,714, as of September 4, 2013, for
                 services associated with the AGF, AWCF, and the follow-on AGF audit readiness
                 contracts.38 Again, if ACC awarded and administered the contracts, it would not have
                 charged for award and administration fees.


                 Contract Transfer Plans Delayed
                 On May 17, 2012, the Chief of Finance and Accounting Policy, CEHNC, stated
                 that ASA(FM&C) personnel planned to transfer the AGF and AWCF audit
                 readiness contracts to ACC.  The Director, AGF Audit Readiness, stated that on
                 June  15,  2012, his office planned to transfer the administration of the AGF and
                 AWCF audit readiness contracts from CEHNC to ACC. However, the transfer did not
                 occur and was delayed several times throughout FY 2012.                                        On October 16, 2012,
                 the Director, AGF Audit Readiness, confirmed that discussions on the potential
                 contract transfer between the three Army organizations (ASA[FM&C], CEHNC,
                 and ACC) were ongoing.                     The Director, AGF Audit Readiness, also stated that his
                 office planned to use ACC to award and administer the next AGF audit readiness
                 contract. Transferring the AGF and AWCF audit readiness contracts to ACC would
                 eliminate future administrative costs.

                 In April 2013, ASA(FM&C) personnel stated that they started the process to
                 transfer the audit readiness contracts to ACC-Aberdeen Proving Ground.  On
                 April  9, 2013, CEHNC personnel awarded a follow-on contract to bridge the AGF
                 audit readiness contract and a new competitive replacement contract, which
                 ACC-Aberdeen Proving Ground will execute.39 On April 19, 2013, CEHNC personnel
                 issued a contract modification to adjust the period of performance on the AGF
                 audit readiness contract to reflect the actual performance date based on the
                 established contract ceiling.                     This action changed the performance completion
                 date from September 28, 2013 to April 9, 2013.



                 	38	
                        CEHNC personnel could not differentiate between the amounts charged for work performed on the three contracts. The
                        total amount on the military interdepartmental purchase request was $260,000.
                 	39	
                        Rather than seeking a Justification and Approval to increase the capacity of the existing AGF audit readiness contract,
                        CEHNC determined that issuance of a new task order would allow for the necessary capacity and time needed to complete
                        key audit readiness milestones and ensure adequate transition time to the successful offeror, if necessary. The period of
                        performance of the follow-on contract ends January 9, 2014, and adds up to $36.8 million to the cost of the AGF audit
                        readiness activities.




52 │ DODIG-2014-056
                                                                                                        Appendixes




Appendix D
Priorities for Achieving Audit Readiness
USD(C)/CFO established the following two FIAR priorities on August 11, 2009:

          •	 improving budgetary information and processes, and

          •	 verifying the existence and completeness of mission critical assets.

The overarching FIAR milestones are:

          •	 September 30, 2014, for achieving an auditable General Fund SBR, as
             mandated by the FY 2012 National Defense Authorization Act in support
             of the Secretary of Defense memorandum on October 13, 2011, and

          •	 September 30, 2017, for achieving auditability of all financial statements,
             as mandated by the FY 2010 National Defense Authorization Act.


Plan to Achieve Auditable General Fund Statement of
Budgetary Resources
Table D-1 provides key information on the five AGF SBR-related FIPs that
ASA(FM&C) and audit readiness contract personnel developed to achieve an
auditable AGF SBR by September 30, 2014.

Table D-1. Key Information on the AGF SBR-Related FIPs
        FIP Title                                   Key Information
                         Includes Appropriations Received, Allotments, and Apportionments.
 Budgetary Authority     FY 2012 Appropriations Received was approximately $202 billion.
                         Includes the Army processes of Funds Receipt, Distribution, and
                         Monitoring; Contracts; Reimbursables In/Out; Temporary Duty Travel;
 Budget Execution        Civilian Payroll; Supplies; Government Purchase Card; and Miscellaneous
                         Payments.
                         FY 2012 Military Personnel cost was approximately
 Military Payroll        $68 billion.
 Fund Balance With       Fund Balance With Treasury was approximately $153 billion as of
 Treasury                September 30, 2012.
                         Defense Finance and Accounting Service-Indianapolis performs the
 Financial Reporting     majority of Army’s financial reporting.


Table D-2 identifies milestones associated with meeting the September 30, 2014, AGF
SBR milestone.




                                                                                                   DODIG-2014-056 │ 53
Appendixes



                 Table D-2. Timeline for Achieving Auditable AGF SBR
                          Milestone Date                                          Description
                                                  Asserted audit readiness of Appropriations Received (line 1290 of the
                      September 28, 2010          SBR).
                                                  Asserted audit readiness of various funds distribution and budget
                      March 31, 2011              execution processes at GFEBS Wave 1 sites.
                                                  Received unqualified opinion and four management letters from
                      August 19, 2011             independent public accounting firm for Appropriations Received.
                                                  Received a qualified audit opinion on the audit readiness assertion at
                      November 22, 2011           the GFEBS Wave 1 sites.
                                                  Asserted audit readiness of the control environment at GFEBS Waves 1
                      June 29, 2012               and 2 sites for the period April 2012 through June 2012.
                                                  Asserted audit readiness of all General Fund activities at all GFEBS
                      June 28, 2013               locations.
                                                  Plan to assert audit readiness of all AGF activities and Fund Balance
                      June 30, 2014               With Treasury.


                 As ASA(FM&C) personnel prepared to assert audit readiness on all AGF activities,
                 they synchronized the SBR audit readiness site visit schedule with the GFEBS
                 deployment plan because of the importance of GFEBS to Army audit readiness.
                 In August 2012, DoD modified the FIAR Methodology to limit the scope of the
                 first year (FY 2015) audits to current year appropriation activity and transactions.
                 Consequently, the initial General Fund SBR audits will not include balances from prior
                 year activity.


                 Plan to Achieve Auditability of Existence and
                 Completeness Financial Improvement Plans
                 Table D-3 provides key information on the five existence and completeness FIPs
                 that ASA(FM&C) and audit readiness contract personnel developed to help achieve
                 an auditable balance sheet by September 30, 2017.

                 Table D-3. Key Information on the AGF Existence and Completeness FIPs
                                                                                                         Net Book Value
                              FIP Title                            Key Information                        as of 9/30/12
                                                                                                            (billions)
                      Military Equipment          Ships, aircraft, and combat vehicles                          $92
                                                  Equipment for material handling, training, and
                      General Equipment                                                                         11
                                                  special tooling and testing
                      OM&S                        Missiles, ammunition, and munitions                           31
                      Real Property               Land, buildings, structures, and utilities                    46
                                                  Liabilities related to Army’s obligation to cleanup
                      Environmental Liabilities   contamination from past waste disposal practices,             30
                                                  leaks, spills, and other incidents.



54 │ DODIG-2014-056
                                                                                                    Appendixes



The Army milestone for asserting audit readiness of the existence and completeness
of most mission critical assets is December 31, 2013.                The Army plans to assert
audit readiness of real property on September 30, 2014.

Table D-4 identifies milestones associated with meeting the December 31, 2013, and
September 30, 2014, milestones for asserting audit readiness of the existence and
completeness of mission critical assets.

Table D-4. Timeline for Asserting Existence and Completeness of Mission Critical Assets
       Milestone Date                                        Assertion*
                                Asserted Military Equipment and General Equipment quick win
 March 31, 2011                 assets
 June 30, 2012                  Asserted OM&S quick win assets
 January 7, 2013                Asserted Real Property quick win assets
 December 30, 2013              Asserted General Equipment
 September 30, 2014             Plan to assert OM&S assets and all Real Property Assets
*ASA(FM&C) has not published a milestone for asserting on environmental liabilities.


The May 2013 FIAR Plan Status Report showed June 2015 as the milestone for
achieving audit readiness (existence and completeness) of Inventory.                   ASA(FM&C)
personnel did not develop FIPs for achieving audit readiness of the two remaining
financial statements (Statement of Net Cost and Statement of Changes in Net
Position). The May 2013 FIAR Plan Status Report states that DoD Components did
not develop and were not required to provide detailed work plans for accomplishing
the goals and objectives of Wave 4 (Full Audit).




                                                                                               DODIG-2014-056 │ 55
Appendixes




                 Appendix E
                 Army General Fund Audit Readiness Contract
                 Deliverables and Contract Line Item Numbers
                 Table E-1 lists the 15 deliverables associated with the 3 tasks in the AGF audit
                 readiness contract.

                 Table E-1. AGF Audit Readiness Contract Tasks and Deliverables
                                   Tasks                                           Deliverables
                      1. Provide subject matter          1. Organize and facilitate the FIP quarterly in process reviews.
                      expertise, advice and
                      recommendations, studies and       2. Prepare for the Army Audit Committee quarterly meeting.
                      reports on the overall audit       3. Document “as-is” situation and provide risk assessment
                      readiness approach, generally      forms and corrective action plans.
                      accepted accounting principles,
                      generally accepted government      4. Identify current auditability impediments and best practices
                      auditing standards, and Office     to resolve impediments.
                      of Management and Budget
                      Circular No. A-123 policy and      5. Conduct SBR field level process evaluation and support SBR
                      compliance.                        auditability efforts.
                                                         6. Verify the existence and completeness of mission critical
                                                         assets and Environmental Liabilities.
                                                         7. Assist in the development of existence and completeness
                                                         test plans for mission critical assets and Environmental
                                                         Liabilities.
                                                         8. Identify corrective actions for existence and completeness
                                                         of mission critical assets and Environmental Liabilities based on
                                                         results of testing.
                      2. Assist the Deputy Assistant     9. Provide analysis, design, programming, implementation
                      Secretary of the Army (Financial   and training for automation of the data collection required to
                      Operations) with developing        manage the Army’s FIP.
                      information technology
                      infrastructure needed to help      10. Update and maintain a comprehensive audit readiness
                      Army achieve its FIAR goals.       strategy.
                                                         11. Establish an Army-wide training program to provide
                                                         training to Army command and installation staff.
                      3. Provide miscellaneous           12. Develop weekly status reports and inform COR and CO of
                      reports or requirements.           any problems or potential problems affecting performance.
                                                         13. Provide to the COR a report showing contractor hours
                                                         worked and work performed.
                                                         14. Assist with briefings with senior Army leaders and key
                                                         stakeholders.
                                                         15. Develop additional written reports within the scope of the
                                                         contract as requested by COR.




56 │ DODIG-2014-056
                                                                                                             Appendixes



Table E-2 lists the 21 CLINs in the AGF audit readiness contract as of November 2012.

Table E-2. AGF Audit Readiness CLINs
           Period                     CLIN                             Description

        Base Period                  0001           Financial Management Audit
   (9/28/10 – 10/31/10)              0002           Travel and Per Diem
                                     1001           Financial Management Audit Task 1 and 2
                                     1002           Other Direct Costs
                                     1003           Defense Base Act Insurance
      Option Period 1                1004           Travel and Per Diem
    (11/1/10 – 9/27/11)
                                     1005           Contract Manpower Reporting FY 2011
                                     1006           Financial Management Audit Task 1 and 2
                                                    National Guard Bureau
                                     1007           Travel and Per Diem National Guard Bureau
                                     2001           Financial Management Audit Task 1 and 2
                                     2002           Other Direct Costs
                                     2003           Defense Base Act Insurance
      Option Period 2                2004           Travel and Per Diem
    (9/28/11 – 9/27/12)
                                     2005           Contract Manpower Reporting FY 2012
                                     2006           Financial Management Audit Task 1 and 2
                                                    National Guard Bureau
                                     2007           Travel and Per Diem National Guard Bureau
                                     3001           Financial Management Audit Task 1 and 2
                                     3002           Other Direct Costs
      Option Period 3*               3003           Defense Base Act Insurance
    (9/28/12 – 9/27/13)
                                     3004           Travel and Per Diem
                                     3005           Contract Manpower Reporting FY 2013
*The AGF audit readiness contract expired on April 9, 2013, before the end of the third option period
because it reached the contract ceiling. On April 9, 2013, a follow-on AGF audit readiness contract
was awarded with a ceiling of $37.6 million and is scheduled to expire on July 9, 2014.




                                                                                                        DODIG-2014-056 │ 57
Appendixes




                 Appendix F
                 Summary of the Contracting Officer’s Representative
                 File Review
                 On November  7 and 8, 2012, the CEHNC CO performed the first COR File Review
                 of the AGF audit readiness contract. In a memorandum dated December 4, 2012,
                 the CEHNC CO identified the corrective actions needed to remedy weaknesses. The
                 following table lists 7 topics from the COR File Review, 24 specific areas reviewed, and
                 the corrective actions for 11 weaknesses identified.

                 Table. Results of COR File Review and the Corrective Actions

                               Topic           Area Reviewed           Results          Corrective Action
                      1. Administrative   Is the COR nomination          No      Requested the nomination
                      Issues              memorandum on file?                    package from the nominating
                                                                                 supervisor.
                                          Has the COR been              Yes      Not Applicable
                                          designated in writing?
                                          Is the COR’s training         Yes      Not Applicable
                                          complete?
                      2. Interview        Is the COR aware of his       Yes      Not Applicable
                                          responsibility to identify
                                          any conflict of interest?
                                          Is the COR aware of his       Yes      Not Applicable
                                          responsibility to notify
                                          the CO of reassignment
                                          or separation?
                                          Does the COR verify labor     Yes      Not Applicable
                                          categories?
                      3. Contract         Is the COR signing written     No      All correspondence from the
                      Surveillance        communication with the                 COR should include a signature
                                          contractor as “COR?”                   block that specifies that he is
                                                                                 the COR.
                                          Does the COR file contain      No      A narrative of the results of
                                          surveillance reports that              the surveillance or inspection
                                          are complete and well                  should be composed by the
                                          documented?                            COR, signed, and submitted
                                                                                 after each occurrence; monthly
                                                                                 at a minimum.
                                          Does the COR produce           No      The COR should develop a brief
                                          memorandum for record                  high level memorandum for
                                          or minutes of all meetings             record to document meetings
                                          with the contractor?                   concerning the contract and
                                                                                 contractor performance.
                                                                                 Attached to that summary
                                                                                 should be detailed minutes
                                                                                 produced by the contractor as
                                                                                 appropriate.




58 │ DODIG-2014-056
                                                                                                        Appendixes



         Topic                 Area Reviewed          Results          Corrective Action
4. Invoice or Receiving   Are invoices annotated to    Yes      Not Applicable
Reports                   reflect timely and proper
                          processing?
                          Does the COR routinely       Yes      Not Applicable
                          determine the
                          reasonableness of the
                          costs incurred?
                          Does the COR                 Yes      Not Applicable
                          appropriately apply the
                          provisions of the Prompt
                          Payment Act?
5. Contractor             Is the COR documenting        No      Documentation tied to
Performance               contractor performance                performance should be
Assessment                in accordance with                    generated regarding surveillance
                          FAR 42.1502?                          or inspection reports, COR
                                                                meeting minutes pertaining
                                                                to contractor performance,
                                                                and initiation of the contract
                                                                in the Contractor Performance
                                                                Assessment Reporting System.
6. Procedures             Does the COR receive and     Yes      Not Applicable
                          review progress reports?
                          Is the COR submitting the     No      Performance reports should
                          periodic performance                  be submitted in conjunction
                          reports to the CO?                    with the monthly surveillance
                                                                reports. Suggest that a section
                                                                be added to the surveillance
                                                                report that discusses contractor
                                                                performance for streamlining
                                                                purposes.




                                                                                                   DODIG-2014-056 │ 59
Appendixes



                              Topic        Area Reviewed             Results          Corrective Action
                      7. Records      Is COR maintaining              Yes      Not Applicable
                                      copies of contract,
                                      mods, property records
                                      and designation
                                      memorandum?
                                      Is COR maintaining              Yes      Not Applicable
                                      copies of all letters to and
                                      from contractor and all
                                      deliverables?
                                      Is COR maintaining copies       Yes      Not Applicable
                                      of invoices?
                                      Is COR maintaining a copy       Yes      Not Applicable
                                      of QASP?
                                      Is COR maintaining               No      Monthly reports of surveillance
                                      evidence of oversight?                   and contractor performance
                                                                               should be submitted and
                                                                               validated.
                                      Is COR maintaining copies        No      Monthly reports of surveillance
                                      of contractor’s periodic                 and contractor performance
                                      performance reports?                     should be submitted and
                                                                               validated.
                                      Is COR maintaining a             No      A narrative of the results of
                                      record of inspections?                   the surveillance or inspection
                                                                               should be composed by the
                                                                               COR, signed, and submitted
                                                                               after each occurrence; monthly
                                                                               at a minimum.
                                      Is COR maintaining               No      A sample survey will be
                                      a memorandum for                         provided to the COR and that
                                      record or minutes of                     annual customer satisfaction
                                      any meetings with the                    survey should be completed in
                                      contractor?                              January 2013 and used as input
                                                                               for documenting contractor
                                                                               performance.
                                      Is COR maintaining               No      The COR should provide
                                      records relating to the                  appropriate documentation
                                      contractor’s quality                     pertaining to the contractor’s
                                      control system and plan?                 quality control plan as required.




60 │ DODIG-2014-056
                                              Management Comments




Management Comments
Under Secretary of Defense (Comptroller)/Deputy
Chief Financial Officer, DoD




                                                    DODIG-2014-056 │ 61
Management Comments



                 Under Secretary of Defense (Comptroller)/Deputy
                 Chief Financial Officer, DoD (cont’d)




62 │ DODIG-2014-056
                                               Management Comments



Assistant Secretary of the Army (Financial Management
and Comptroller)




                                                     DODIG-2014-056 │ 63
Management Comments



                 Assistant Secretary of the Army (Financial Management
                 and Comptroller) (cont’d)




64 │ DODIG-2014-056
                                                  Management Comments



Chief of Contracting, U.S. Army Corps of Engineers –
Huntsville Engineering and Support Center




                                                        DODIG-2014-056 │ 65
Management Comments



                 Chief of Contracting, U.S. Army Corps of Engineers –
                 Huntsville Engineering and Support Center (cont’d)




66 │ DODIG-2014-056
                                                  Management Comments



Chief of Contracting, U.S. Army Corps of Engineers –
Huntsville Engineering and Support Center (cont’d)




                                                        DODIG-2014-056 │ 67
Management Comments



                 Chief of Contracting, U.S. Army Corps of Engineers –
                 Huntsville Engineering and Support Center (cont’d)




68 │ DODIG-2014-056
                                                  Management Comments



Chief of Contracting, U.S. Army Corps of Engineers –
Huntsville Engineering and Support Center (cont’d)




                                                        DODIG-2014-056 │ 69
Management Comments



                 Chief of Contracting, U.S. Army Corps of Engineers –
                 Huntsville Engineering and Support Center (cont’d)




70 │ DODIG-2014-056
                                                                                 Acronyms and Abbreviations




Acronyms and Abbreviations
     ACC    Army Contracting Command
     AGF    Army General Fund
            Assistant Secretary of the Army (Financial
ASA(FM&C)   Management and Comptroller)
    AWCF    Army Working Capital Fund
   CEFMS    Corps of Engineers Financial Management System
   CEHNC    U.S. Army Corps of Engineers - Huntsville Engineering and Support Center
     CLIN   Contract Line Item Number
      CO    Contracting Officer
     COR    Contracting Officer’s Representative
    COTR    Contracting Officer’s Technical Representative
 DoD FMR    DoD Financial Management Regulation
      FAR   Federal Acquisition Regulation
     FIAR   Financial Improvement and Audit Readiness
      FIP   Financial Improvement Plan
    GFEBS   General Fund Enterprise Business System
     IBM    International Business Machines
    O&M     Operation and Maintenance
   OM&S     Operating Materials and Supplies
    QASP    Quality Assurance Surveillance Plan
      SBR   Statement of Budgetary Resources
   USACE    U.S. Army Corps of Engineers
  USD(C)/   Under Secretary of Defense (Comptroller)/
     CFO    Chief Financial Officer, DoD




                                                                                            DODIG-2014-056 │ 71
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           1.800.424.9098
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
